<html>
<title> - FISCAL YEAR 2020 PRIORITIES FOR ATOMIC ENERGY DEFENSE, NONPROLIFERATION, SAFETY, AND ENVIRONMENTAL MANAGEMENT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 116-31]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                      FISCAL YEAR 2020 PRIORITIES

                       FOR ATOMIC ENERGY DEFENSE,

         NONPROLIFERATION, SAFETY, AND ENVIRONMENTAL MANAGEMENT

                               __________

                              HEARING HELD
                             APRIL 9, 2019

                                     
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     
  
                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
37-498                     WASHINGTON : 2020 





















                    SUBCOMMITTEE ON STRATEGIC FORCES

                    JIM COOPER, Tennessee, Chairman

SUSAN A. DAVIS, California           MICHAEL R. TURNER, Ohio
RICK LARSEN, Washington              JOE WILSON, South Carolina
JOHN GARAMENDI, California           ROB BISHOP, Utah
JACKIE SPEIER, California            MIKE ROGERS, Alabama
SETH MOULTON, Massachusetts          MO BROOKS, Alabama
SALUD O. CARBAJAL, California        BRADLEY BYRNE, Alabama
RO KHANNA, California                SCOTT DesJARLAIS, Tennessee
WILLIAM R. KEATING, Massachusetts    LIZ CHENEY, Wyoming
KENDRA S. HORN, Oklahoma, Vice 
    Chair
               Grant Schneider, Professional Staff Member
                Sarah Mineiro, Professional Staff Member
                           Zach Taylor, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Gordon-Hagerty, Hon. Lisa E., Administrator, National Nuclear 
  Administration; accompanied by ADM James Caldwell, USN, 
  Director of Naval Nuclear Reactors, and Dr. Charles Verdon, 
  Deputy Administrator for Defense Programs......................     2
Hamilton, Hon. Bruce, Chairman, Defense Nuclear Facilities Safety 
  Board..........................................................     5
White, Hon. Anne Marie, Assistant Secretary for the Office of 
  Environmental Management, United States Department of Energy...     4

                                APPENDIX

Prepared Statements:

    Cooper, Hon. Jim, a Representative from Tennessee, Chairman, 
      Subcommittee on Strategic Forces...........................    37
    Gordon-Hagerty, Hon. Lisa E..................................    41
    Hamilton, Hon. Bruce.........................................    64
    Turner, Hon. Michael R., a Representative from Ohio, Ranking 
      Member, Subcommittee on Strategic Forces...................    39
    White, Hon. Anne Marie.......................................    55

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................    77
    Mrs. Davis...................................................    80
    Mr. Garamendi................................................    82
    Ms. Horn.....................................................    82
    Mr. Larsen...................................................    81
 
             FISCAL YEAR 2020 PRIORITIES FOR ATOMIC ENERGY 
                   DEFENSE, NONPROLIFERATION, SAFETY, 
                      AND ENVIRONMENTAL MANAGEMENT 

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                            Washington, DC, Tuesday, April 9, 2019.
    The subcommittee met, pursuant to call, at 3:15 p.m., in 
room 2118, Rayburn House Office Building, Hon. Jim Cooper 
(chairman of the subcommittee) presiding.
    Mr. Cooper. The subcommittee will come to order. Let us 
first ask for the Lamborn unanimous consent to allow full 
committee members to ask questions at the end. Hearing no 
objection, so moved.
    You are close there. Larsen nearly objected.
    Second, I would like to ask unanimous consent that both 
opening statements and member, witness testimony be inserted 
for the record. Hearing no objections, so moved.
    I would like to welcome everyone to this hearing on the 
fiscal year 2020 budget request for atomic energy defense, 
nonproliferation, safety, and environmental management.
    Here today, we have Administrator Lisa Gordon-Hagerty, 
Assistant Secretary Anne White, and Chairman Bruce Hamilton.
    We also have backup experts in the audience such as Admiral 
James Caldwell, Director of Naval Nuclear Reactors; Dr. Charles 
Verdon, Deputy Administrator for Defense Programs; and Brent 
Park, Deputy Administrator for Defense Nuclear 
Nonproliferation.
    Any of these folks may be called to provide the 
subcommittee more information if members request it. Rather 
than continue with my opening statement, I will just ask that 
it will be inserted for the record.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 37.]
    Mr. Cooper. And I would like to turn to the ranking member 
for his opening statement.
    Mr. Turner. I will do the same, Mr. Chairman. Thank you. 
Submit my statement for the record. Thank you.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 39.]
    Mr. Cooper. Thank you.
    I want to apologize to the witnesses for the late start due 
to votes--unavoidable. But why don't we start by hearing Lisa 
Gordon-Hagerty.

   STATEMENT OF HON. LISA E. GORDON-HAGERTY, ADMINISTRATOR, 
   NATIONAL NUCLEAR ADMINISTRATION; ACCOMPANIED BY ADM JAMES 
  CALDWELL, USN, DIRECTOR OF NAVAL NUCLEAR REACTORS, AND DR. 
   CHARLES VERDON, DEPUTY ADMINISTRATOR FOR DEFENSE PROGRAMS

    Ms. Gordon-Hagerty. Chairman Cooper, Ranking Member Turner, 
and distinguished members of the subcommittee, thank you for 
the opportunity to present the President's fiscal year 2020 
budget for the Department of Energy's National Nuclear Security 
Administration [NNSA].
    It is an honor to appear before you today, proudly 
representing an extraordinary team at NNSA, a team that is 
indispensable for our Nation's nuclear security. I am also 
delighted to be sharing this hearing with my friend and 
colleague, Assistant Secretary Anne Marie White.
    A written statement has been provided to the subcommittee, 
and I respectfully request that it would be submitted for the 
record.
    Mr. Cooper. So moved.
    Ms. Gordon-Hagerty. Thank you. Since I last testified 
before the committee, NNSA has been diligently working to 
execute our three enduring missions. One, ensuring the safety, 
security, and effectiveness of the U.S nuclear weapons 
stockpile; two, reducing the threat of nuclear proliferation 
and nuclear terrorism around the world; and three, providing 
nuclear propulsion for the U.S. Navy's fleet of aircraft 
carriers and submarines.
    The President's fiscal year 2020 budget request for NNSA is 
an investment in these missions and in our infrastructure and 
people. My priorities with this crucial funding are to 
revitalize the United States defense plutonium capabilities and 
other essential infrastructure, to keep our stockpile life 
extension programs on schedule and on budget, and to recruit 
the workforce of the future.
    My focus is to set these conditions today for a resilient 
and responsive nuclear security enterprise for the next 50 
years and beyond. The 2018 Nuclear Posture Review [NPR] 
provided a realistic view of the world. With an evolving and 
uncertain geopolitical landscape, the NPR states that there is 
no margin for further delay in recapitalizing the nuclear 
security enterprise, an enterprise comprised of eight 
laboratories, plants, and sites and a dedicated workforce of 
almost 44,000 employees.
    NNSA's $16.5 billion request is a necessary investment when 
you consider the stakes. Russia and China are pursuing entirely 
new nuclear weapons capabilities. North Korea's intentions 
remain unclear. And we face the most complex and demanding 
global security environment since the end of the Cold War.
    Accordingly, the fiscal year 2020 budget request represents 
the largest increase for our nonproliferation, 
counterproliferation, and nuclear counterterrorism program in 5 
years. The NPR reaffirmed the need for effective arms control 
measures and treaty verification and with this funding, NNSA 
will continue to apply its technical expertise to reduce 
nuclear threats around the world.
    During my nomination hearing last year, I stated that my 
highest priority was plutonium pit manufacturing. That has not 
changed. For the next several decades, NNSA will rely on a 
combination of newly manufactured pits and a judicious reuse of 
existing pits to modernize the existing U.S. nuclear weapons 
stockpile.
    A modest pit manufacturing capability is necessary to 
ensure the safety and security of refurbished warheads while 
maintaining high confidence in stockpile effectiveness. 
Consistent with the NPR, NNSA is committed to producing no 
fewer than 80 pits per year by 2030 to meet military 
requirements.
    Last May, the Nuclear Weapons Council endorsed NNSA's path 
forward to recapitalize a production capability that was 
shuttered in the early 1990s. Our two-site approach calls for 
pit production at both the Los Alamos National Laboratory in 
New Mexico and at the Savannah River Site in South Carolina.
    Following this strategy, the fiscal year 2020 budget 
request includes $410 million for conceptual design activities 
at Savannah River plutonium processing facility and our request 
also calls for a nearly $500 million investment in the 
plutonium pit production capabilities at Los Alamos.
    NNSA is not only investing in plutonium pit mission. Thanks 
to the strong support of Congress, we are making significant 
progress in modernization across our enterprise. We have 
started construction of the main buildings of the Uranium 
Processing Facility [UPF] at the Y-12 National Security 
Complex. And I am proud to report that this vital undertaking 
has been on budget and on schedule for the last 6 years. We 
remain on track to deliver UPF by the end of 2025 for not more 
than $6.5 billion.
    All of NNSA's enduring missions are underpinned by state-
of-the-art scientific capabilities. As these capabilities 
become more important during this time of renewed great power 
competition, NNSA is working to stay ahead of the technology 
curve.
    A future gap in high performance computing is being 
addressed through a joint effort between the Department of 
Energy's Office of Science and NNSA. Our contribution to that 
effort will be undertaken at Lawrence Livermore National 
Laboratory and we will deliver an exascale computing platform 
to the enterprise in 2023. NNSA is also moving forward with a 
project to enhance the experimental capabilities at the Nevada 
National Security Site, which is a crucial element for our 
stockpile stewardship mission.
    From the earliest days of the Manhattan Project, the 
dedicated men and women of the nuclear security enterprise have 
answered our Nation's call. What our team has accomplished 
today is remarkable. We completed the W76-1 Life Extension 
Program under budget and ahead of schedule. We have five 
warhead modernization programs underway, all of which are on 
budget and on schedule.
    We have helped 33 countries plus Taiwan to become free of 
highly enriched uranium. We routinely deploy nuclear security 
experts to major public events like the Super Bowl to keep the 
public safe from a radiological threat.
    And we are lending unparalleled expertise to the U.S. 
Navy's new Columbia-class program to ensure sea-based 
deterrence capabilities for decades to come. Finally, I would 
like to emphasize that regardless of the investments we make in 
modernizing our infrastructure, the United States must continue 
its investment in our world-class workforce as requested in the 
President's 2020 budget.
    We face stiff competition from the private sector for top 
talent in highly technical fields. With an aging workforce, 
NNSA has launched an integrated effort to recruit the next 
generation of scientists, engineers, and technicians, so that 
we can continue to answer the Nation's call and meet tomorrow's 
challenges.
    No other government or civilian agency can accomplish these 
unique missions on behalf of the American people, and I could 
not be prouder to represent NNSA today.
    Thank you for your strong and consistent support and the 
opportunity to testify before you today. And I look forward to 
answering your questions. Thank you.
    [The prepared statement of Ms. Gordon-Hagerty can be found 
in the Appendix on page 41.]
    Mr. Cooper. Thank you.
    Ms. White.

STATEMENT OF HON. ANNE MARIE WHITE, ASSISTANT SECRETARY FOR THE 
OFFICE OF ENVIRONMENTAL MANAGEMENT, UNITED STATES DEPARTMENT OF 
                             ENERGY

    Secretary White. Chairman Cooper, Ranking Member Turner, 
and members of the subcommittee, thank you for the opportunity 
to appear today. And I share your sentiment as well. It is good 
to be here with you today.
    The fiscal year 2020 budget request of $6.5 billion 
demonstrates the administration's commitment to tackling the 
environmental legacy of nuclear weapons production that helped 
end World War II and the Cold War.
    Mr. Chairman, this year marks the 30th anniversary of the 
EM [Environmental Management] program. Since its inception our 
dedicated workforce has cleaned and closed sites, dramatically 
reducing EM footprint from 107 sites to just 16.
    Progress continues at every EM site. Last year alone, we 
took another significant step towards large-scale cleanup at 
the Y-12 site at Oakridge by removing over 3 tons of mercury 
from equipment and completing all of the site preparation 
required for construction of the mercury treatment facility.
    Workers in South Carolina consolidated more than 400,000 
cubic yards of coal ash and ash-contaminated soil at the 
Savannah River Site. They got it done safely and 14 months 
ahead of schedule, saving $9 million and earning them the 
Project Management Institute award for project excellence.
    And at Hanford, workers began installing equipment to 
excavate highly contaminated soil under the 324 Building. Even 
with great work and significant budgets, cleanup progress is 
being significantly outpaced by environmental liabilities.
    Mr. Chairman, during my confirmation hearings, I committed 
to enhance safety through risk mitigation and cleanup and to 
eliminate overall taxpayer liability. That is precisely what I 
have been focused on during my first year on the job.
    We are getting a clear picture of EM liabilities for the 
first time, using accurate up-to-date cost and schedule data, 
something I prioritized immediately. We are shifting to a 
sustainable cleanup approach that uses the latest scientific 
knowledge in waste composition, risks, and attainable end 
states.
    And we are increasing accountability to Congress and to the 
American people through stronger project management and 
oversight. There are some opportunities with the real potential 
to get cleanup projects done and off the books safely, sooner, 
and at a reasonable cost.
    The Department is evaluating these opportunities, including 
new technologies, treatment options, and disposal capabilities, 
in a comprehensive way. We look forward to engaging with 
Congress as well as the greater cleanup community on the best 
ways to move forward with site options assessments currently 
underway.
    Following on recommendations from wide-ranging and 
nonpartisan groups, the Department is also evaluating its 
interpretation of the statutory term, high-level radioactive 
waste. EM is also taking steps to get the best value out of 
every cleanup dollar that Congress and the American people 
provide.
    That includes identifying impactful regulatory reforms and 
improving procurements through a new end state contracting 
model. As EM is put in a sustainable path forward, the budget 
request provides the resources to build upon recent successes 
and bring a renewed sense of urgency to the program.
    The request enables meaningful progress throughout the 
cleanup complex, including ramping up efforts to address 
radioactive tank waste at the Savannah River Site and at 
Hanford. At Oakridge, the request advances construction on the 
Outfall 200 Mercury Treatment Facility, continues D&D 
[deactivation and decommissioning] at the East Tennessee 
Technology Park, and continues preparations to support 
processing the remaining U-233 material at the Oakridge 
National Laboratory.
    In the interest of time, I will stop there and just note 
that more details about the work we have planned next year are 
provided in my written testimony. Mr. Chairman, EM's historical 
successes have been achieved through the dedication of leaders 
on both sides of the aisle, determined to drive the cleanup 
mission toward completion.
    I want to express my desire to work with Congress towards a 
future that delivers results for cleanup communities and all 
U.S. taxpayers. I appreciate this opportunity and the 
subcommittee's support of the EM mission.
    [The prepared statement of Secretary White can be found in 
the Appendix on page 55.]
    Mr. Cooper. Thank you, Ms. White.
    Mr. Hamilton.

  STATEMENT OF HON. BRUCE HAMILTON, CHAIRMAN, DEFENSE NUCLEAR 
                    FACILITIES SAFETY BOARD

    Mr. Hamilton. Thank you, Chairman Cooper, Ranking Member 
Turner, distinguished members of the committee, it's an honor 
to be here before you today as the chairman of the Defense 
Nuclear Facilities Safety Board to share my observations on the 
challenges that the Board has associated with providing 
oversight to the Department of Energy's defense nuclear 
facilities.
    As I believe has been the past practice, I have submitted 
extensive written remarks for the record. Those were 
unanimously approved by my Board. In the interest of time, I 
will limit my oral comments to only those topics you, Mr. 
Chairman, specifically mentioned in your invitation letter to 
this hearing.
    I, not the Board as a whole, are responsible for any 
deviations from the written remarks as well as for any 
responses to questions you might have. For those members of the 
subcommittee who may not be familiar with the work of the 
Board, our mission is to conduct independent oversight of 
defense nuclear facilities and to inform the Secretary of 
Energy when we find issues that challenge the adequate 
protection of the public.
    The President's fiscal year 2020 request for the Board is 
$29.45 million for 100 full-time equivalent employees. This is 
a 5 percent decrease from the agency's fiscal year 2019 
appropriation level of $31 million. The Board's foundation is 
built on the expertise of the Board members and our staff, and 
approximately two-thirds of our annual budget is dedicated to 
salaries and benefits.
    Mr. Chairman, you specifically asked me to address any 
recent recommendations to the Secretary of Energy. There is one 
recommendation, 2019-1 entitled Pantex Uncontrolled Hazard 
Scenarios and 10 CFR 830 Implementation. It was issued on 
February the 20th.
    This recommendation focuses on three main topics at Pantex. 
First, the lack of adequate controls for high-consequence 
hazard scenarios; two, deficiencies in portions of the safety 
basis for the nuclear explosive operations; and three, 
deficiencies within the Pantex Special Tooling Program. The 
Board is currently awaiting a response from the Secretary of 
Energy of whether he accepts that recommendation and whether or 
not there will be an implementation plan.
    In your letter, Mr. Chairman, you asked about Department of 
Energy Order 140.1, Interface with the Defense Nuclear 
Facilities Safety Board, issued in May of last year to replace 
a prior DOE [Department of Energy] directive.
    Order 140.1 incorporated major changes, including new 
restrictions and protocols regarding the Board's access to 
information, facilities, and personnel. It is the unanimous 
view of the Board that DOE Order 140.1 is in direct conflict 
with a plain reading of the Atomic Energy Act in several ways.
    For instance, the order defines the public as existing only 
outside geographical site boundaries. Such an interpretation 
could preclude the Board from oversight for workers, collocated 
workers, and general members of the public who happen to be 
inside that site boundary.
    Notably, and this is particularly important for places like 
Y-12 in Tennessee, notably it could also prevent Board 
oversight for important programs such as criticality safety. 
Not only is this inconsistent with the Atomic Energy Act, but 
this would be a clear departure from well-established past 
practices.
    Lastly, Mr. Chairman, you asked me to address my proposal 
to reduce our staff size. On August 14th of last summer, the 
Board approved in a vote of three in favor, one opposed on a 
motion made by me to improve effectiveness in conducting our 
mission through more robust field oversight and a leaner, 
nimbler headquarters staff.
    The motion would have established an executive director of 
operations, restructured the agency's organization primarily by 
adding two new field offices and by assigning resident 
inspectors for facilities which currently don't have them, and 
by reducing employee headcount through attrition to about 79.
    Our congressional appropriators did not support this plan 
and they included language in the Energy and Water Development 
and Related Agencies Appropriation Act of 2019 which preempted 
its implementation.
    Consequently, I have made no structural changes to our 
organization. I have directed the hiring of employees to 
backfill specific positions, and although we remain below our 
fiscal 2019 funded 117 employees, we will hire in order to 
achieve the 100 employees that are proposed in the 2020 budget. 
This concludes my oral remarks.
    [The prepared statement of Mr. Hamilton can be found in the 
Appendix on page 64.]
    Mr. Cooper. Thank you, Mr. Hamilton.
    I will begin the questioning and I will try to just use my 
5 minutes.
    Ms. Gordon-Hagerty, I have a number of things I want to ask 
you. Let me begin by, if you are familiar with the role that 
the Jasons <dagger> have played and possibly also the Naval 
Research Advisory Committee in terms of nuclear and other forms 
of scientific expertise.
---------------------------------------------------------------------------
    <dagger> JASON is an independent scientific advisory group that has 
since 1960 provided consulting services to the U.S. Government on often 
sensitive scientific and defense issues. Its members are known as 
``Jasons.''
---------------------------------------------------------------------------
    Ms. Gordon-Hagerty. I am.
    Mr. Cooper. You are familiar?
    Ms. Gordon-Hagerty. Yes.
    Mr. Cooper. How would you categorize their performance over 
the last 60, 70 years?
    Ms. Gordon-Hagerty. I can speak to two recent studies----
    Mr. Cooper. We can't quite hear you. Can you pull the 
microphone closer?
    Ms. Gordon-Hagerty. Is that any better?
    Mr. Cooper. Yes.
    Ms. Gordon-Hagerty. My apologies. So I can express to you 
my opinion on the two recent studies that were undertaken by 
Jasons, one of which was the Tritium study. I found their 
reports to be fulsome and very--the members of JASON being very 
knowledgeable about issues associated with our programs at 
NNSA. I can't speak to the history or the 60, 70 years of 
Jasons, but I can tell you that they are rich in history and 
their technical expertise is sound.
    Mr. Cooper. Were you aware that their contract has been 
summarily terminated by the Pentagon?
    Ms. Gordon-Hagerty. My understanding is that the Pentagon 
is doing something with their contract. They do manage the 
contract or administrate the--administer the contract for 
JASON.
    Mr. Cooper. Doing something with the contract is a 
euphemism for termination?
    Ms. Gordon-Hagerty. My understanding, again, I haven't 
looked into it. I have actually asked my staff, Chairman, to 
look into it to see what is happening, because we do have some 
studies that we are undertaking with JASON, so we want to make 
sure that if there are some issues associated with contract 
management that somebody handles that, because we do have some 
ongoing studies with Jasons.
    Mr. Cooper. Another topic, it seems like one of the largest 
future expenditures, if not the largest, that you have 
jurisdiction over will be whether we have a second a site for a 
plutonium sustainment program, that second site being Savannah 
River. It is my understanding that the lifecycle cost of that 
would be an additional $13, $14 billion if we undertake that 
second site. So that is a large sum of money, especially given 
the size of your budget, that is roughly the size of your 
annual budget for your entire NNSA.
    So it seems like this decision is really not being 
presented to Congress as a decision, but more as a fait 
accompli, because in this budget as you stated in your oral 
testimony, you are asking for $410 million for advanced design 
work on repurposing the MOX [mixed oxide fuel] facility.
    In my lay terms, that would be two luxury skyscrapers in 
Nashville, Tennessee. And this is just for blueprint work for a 
proposed rehab of a building. But it seems like if we invest 
that money, then we will be well into the $14 billion 
expenditure for a second site.
    So I would find it more useful for the subcommittee for all 
the members to try to make a decision on that instead of being 
forced into a decision by spending a little bit money here, a 
little bit money there. Pretty soon, you are a little bit 
pregnant and then we have the whole $14 billion. So are you 
aware of another area in which we could save $14 billion?
    Ms. Gordon-Hagerty. In a word, no. There is not another 
place where I can see that happening. However, we are working 
to advance the Department of Defense requirements as directed 
by Nuclear Weapons Council to produce not less than 80 pits per 
year for our nuclear weapons stockpile, to maintain our 
existing nuclear weapon stockpile with the life extension and 
modernization programs.
    To that end, again, to recall for the members of the 
subcommittee, we haven't had a plutonium production capability 
since the early 1990s.
    The last time we produced 11 ``war reserve,'' what we call 
diamond-stamped pits for the United States, was over two 
decades ago. We are trying to modernize and recapitalize that 
capability at Lawrence, excuse me, Los Alamos National 
Laboratory. We have them on a path forward and progress to 
produce not less than 10 pits per year in 2024, 20 pits in 
2025, and in 2026, maintain 30 pits per year. That is really 
stretching their capabilities. After all, Los Alamos National 
Laboratory and Lawrence Livermore National Laboratory are known 
to be nuclear weapon design agencies, not production sites.
    And, again, we shuttered our production capabilities in the 
early 1990s. We are modernizing an existing stockpile and in 
order to do so we need nuclear weapons or the pits for those 
nuclear weapons. And in order to get to that 80 pits per year 
and recognizing the challenges we have ahead of us in 11 
years--in 11 years, we are going to have to produce not less 
than 80 pits per year.
    We conducted an analysis of alternatives and an engineering 
assessment. And the best way to get there given the risk and 
risk mitigation factors is to repurpose the facility at 
Savannah River Site and produce the remaining 50 pits per year 
starting in 2030 at Savannah River Site.
    And we believe that that is good investment of taxpayer 
resources, because otherwise we will not be able to get to that 
80 pits per year if we looked at the plan of going forward at 
Los Alamos, which would consider major new construction 
activities.
    Mr. Cooper. Well, you have used most of my time. I would 
like more information on your May 2018 plutonium pit production 
engineering assessment results, because I----
    Ms. Gordon-Hagerty. I would be pleased to do so.
    Mr. Cooper [continuing]. Think that you are reaching more 
of a conclusion than perhaps they did. I have rarely heard of a 
competitive bid situation in which one bidder is twice as 
expensive as the other bidder, and yet there is such enthusiasm 
for bidding--awarding the bid to the by far, the highest 
bidder. I have nothing against South Carolina or Savannah 
River, but $14 billion is $14 billion.
    You stated earlier you didn't know of another way to save 
that money. And let us see if we can't save a bit here. So I 
would at least like detail on this study, not just raw 
conclusions.
    Ms. Gordon-Hagerty. Fair enough. And those are lifecycle 
costs.
    Mr. Cooper. I understand that.
    Ms. Gordon-Hagerty. Thank you. And I will be pleased to 
come by and brief you specifically about these----
    Mr. Cooper. Our taxpayers back home are concerned about 
their life cycle, and we are spending a lot of their money, 
sometimes for very little result. I see that my time is 
expired. I will turn to the ranking member.
    Mr. Turner. Miss Gordon-Hagerty, the goal of 80 pits per 
year, is that arbitrary or is that based upon our needs for a 
modernization?
    Ms. Gordon-Hagerty. That is based on needs set forth by 
STRATCOM [U.S. Strategic Command] and Nuclear Weapons Council 
to produce not less than 80 pits per year, and that is for our 
future nuclear weapons needs.
    Mr. Turner. Okay. Thank you. Mr. Hamilton, when you began 
your opening statement--and I don't have a question for you 
yet, I just wanted to make a comment on your, in true oversight 
fashion, you gave what I think may be the first time I have 
heard an opening statement that had a disclaimer in front of 
it, but I really appreciate what you do, because what you do is 
go around and identify things that could be an issue that 
everyone needs to address and be concerned with. I am going to 
bring up one of those.
    Miss Gordon-Hagerty, so you have such unbelievable depth of 
responsibility, because you are dealing with nuclear material, 
nuclear weapons, it is enormous really the complexity of what 
has to be done to ensure safety and ensure compliance.
    My understanding that you have received a letter, which I 
have a copy of, from Mr. Hamilton, March 21st, the Defense 
Nuclear Facility Safety Board, that raised a concern about the 
Nevada National Security Site, stating the facility continues 
to operate without accounting for the increase in seismic 
hazard and without evaluating whether the accredited structure, 
systems, and components can perform their safety function 
during and after a seismic event.
    Could you do us a favor? First, could you describe the 
importance of the Nevada National Security Site, some of the 
concerns and issues that you must deal with there? And then, 
could you comment on Mr. Hamilton's letter?
    Ms. Gordon-Hagerty. Thank you. I will be happy to.
    First of all, the Nevada National Security Site is a 
profoundly important site, one of the eight labs, plants, and 
sites that makes up the National Nuclear Security 
Administration. It provides a profoundly important role and it 
has got a storied history. For 70 years now it was the Nevada 
Proving Grounds, where we conducted 100 atomic tests above 
ground and 828 underground nuclear weapons tests to certify our 
nuclear weapons stockpile.
    We have not conducted an underground nuclear weapon test 
since 1992, where we voluntarily committed to no more nuclear 
explosions. However, the programs that are there are unique. We 
continue to certify our nuclear weapons stockpile by conducting 
critical experiments called subcritical experiments at the U1a 
Tunnel at Savannah--excuse me, at the Nevada Nuclear Security 
Site. We also conduct a number of other programs.
    We have trained over 200,000 first responders in nuclear 
and radiological first responder response capabilities at the 
Nevada National Security Test Site--Nevada National Security 
Site. Excuse me. I am from the old school. I still call it the 
Nevada Test Site.
    So nonetheless it plays a critically important and unique 
role in assessing and certifying our nuclear weapon stockpile. 
To the extent at the DAF or the Device Assembly Facility to 
which you alluded and the Defense Board had made--had cited 
their concerns, the scenario that they have described actually 
is a resulting, is a nuclear detonation or, excuse me, concerns 
expressed are resulting from an explosion as a result of an 
earthquake that induces uncontrolled release of radioactive 
materials as a result of nuclear explosions.
    Unfortunately, we do not even conduct nuclear explosive 
testing or evaluation of nuclear explosive operations. That is 
neither authorized or do we conduct those kinds of operations 
at the Device Assembly Facility.
    So the scenario that they have drawn out is not something 
that could occur, since we don't conduct nuclear explosive 
operations at the DAF.
    Mr. Turner. Two more questions for you, and then I will get 
to Mr. Hamilton on the same letter. The 76-2, great interest as 
a result of Russia's change in nuclear doctrine to escalate to 
de-escalate, low-yield nukes have become a considerable issue.
    Could you please tell us why we need this for our 
deterrence strategy and does it make the use of nuclear weapons 
more likely or less likely?
    Ms. Gordon-Hagerty. First of all, we are in--I am sure 
everybody would agree, we are in an era of renewed strategic 
peer competition and evolving threats. The 76-2 is not a new 
nuclear weapon. It is a low-yield nuclear weapon that is a 
modification of the 76-1 that was just completed. And it does 
not either increase or decrease the likelihood of war or 
nuclear war. What it does is it provides the President and 
provides our military planners with a diversity in the nuclear 
weapon stockpile.
    Mr. Turner. At the same time, isn't there some concern that 
if we only have high-yield nuclear weapons and Russia has low-
yield and they use one that they would think we would be less 
reticent or more reticent to respond, and therefore we have a 
lessened deterrence against Russia's actions?
    Ms. Gordon-Hagerty. That is the ongoing argument. However, 
we have had low-yield nuclear weapons in our stockpile and 
currently do.
    Mr. Turner. And so far we have deterred everyone.
    Mr. Hamilton, first off, thank you for what you do because 
you have the technical expertise to take a look at--you are the 
what-could-go-wrong scenario guy. And I appreciate that because 
everybody else then has to take a look and say, Okay, could 
this go wrong, could this not go wrong, what do we need to fix? 
With respect to this letter and her response, what are your 
thoughts?
    Mr. Hamilton. I concur with everything I just heard 
Administrator Gordon-Hagerty say. The facility was designed for 
much larger quantities of material at risk than are currently 
in the facility because we suspended but did not eliminate all 
future possibility of testing.
    The standards to which that facility are designed and built 
are based on the largest amounts of MAR [material at risk] that 
could happen in a testing scenario. They don't do that right 
now.
    So our letter was specifically addressing, given the set of 
parameters that you are designed for, you have some new seismic 
information that needs to be added to the calculation.
    I would also like to point out that we were developing this 
information for this letter late last calendar year and early 
this spring, and it was issued well before we even knew that 
NNSA was going to ship plutonium from Savannah River to the DAF 
in Nevada. So we didn't know about any of that and we didn't 
care about any of that. It was irrelevant to us.
    The plutonium that was shipped there from Savannah River 
is--does not affect our calculations at all.
    And I would like to just say the bottom line is that our 
concern was the NNSA's documentation needs to be refined based 
on new information, but there is an erroneous perception in the 
press that the DAF is not, is unsafe. The press even called it 
a ticking time bomb.
    This hyperbole could not be further from the truth. For its 
current mission, as what Administrator Gordon-Hagerty defined, 
for its current mission, DAF is unequivocally not a challenge 
to the adequate protection to the public health and safety. If 
it were, the Board would have issued a formal recommendation, 
which we did not.
    Mr. Turner. Mr. Hamilton, I greatly appreciate your 
expertise and your clarification of that. Thank you both for 
what you do because you help keep us safe.
    Mr. Cooper. Mr. Larsen.
    Mr. Larsen. Secretary White, the budget cuts Hanford 
cleanup by about $400 million. And I am wondering what 
assessment you have of the lower budget--the impact of cleanup 
operations and timelines at Hanford as a result of the lower 
budget.
    Secretary White. So we believe that the budget is adequate 
for our needs in 2020, and we are moving forward. We also had 
an update in our lifecycle baseline cost estimate and we are 
moving out quickly to address that by developing, as required 
by our project management orders, an analysis of alternatives, 
which is due at the end of the fiscal year. So we are confident 
that we can move out and accomplish what we need to at Hanford 
for 2020.
    Mr. Larsen. Yes. So your new lifecycle report estimates the 
cleanup from--costing between $323 billion and $677 billion, is 
that about right?
    Secretary White. Yes.
    Mr. Larsen. So--I could have given you that estimate. That 
estimate is a $354 billion difference. And we are frustrated in 
Washington State with having to clean this up. We are 
frustrated with the Federal Government and you are not alone in 
our ire in terms of being a target of our ire.
    Why is there a $354 billion difference in the high- and 
low-end estimate? Why isn't it any closer given everyone's past 
experience at Hanford?
    Secretary White. So the higher number is what we call an 80 
percent probability number. And what it does, is it realizes 
some risks that we are very likely to encounter. It also takes 
into account updated operational costs that involve operating 
multiple facilities at the same time. And further, the cost 
estimate had not been, the lifecycle cost estimate had not been 
updated since 2009.
    So in order for us to work with you all in the State of 
Washington and really progress cleanup, we have to be 
transparent and we have to know what we are dealing with, so 
that we can have fruitful discussions about the go-forward 
because we are committed to Hanford cleanup.
    Mr. Larsen. Thanks. It almost seems like a function of new 
people coming in and wanting to get up to date, but there 
isn't--I mean there is a lot not to know. But given our 
collective experience there, there is a lot we already know.
    What don't we know, that resulted in a 25 percent cut to 
the Richland operations and a 12 percent to the ORP [Office of 
River Protection] in this proposed budget?
    Secretary White. So I don't think the--in fact, I know the 
lifecycle baseline was not related to that and----
    Mr. Larsen. Yes, right. I understand.
    Secretary White. As we go forward, as I say, we need to 
drive some innovations and as Chairman Cooper mentioned, 
budgets are a big deal and we need to be mindful of the cost.
    So I am just looking forward to working with you and others 
of the Washington delegation to move things forward, because we 
have a moral, legal, and ethical responsibility to do so.
    Mr. Larsen. So in the Federal Register of 2018, in your 
testimony, you noted that the Department is seeking public 
comment on this interpretation about reclassifying high-level 
radioactive waste. A frightening proposal and my--so if you 
want my public comment, it is a frightening proposal.
    You also note the Department's consideration of a new 
interpretation does not alter or abrogate responsibilities or 
policies under existing regulatory requirements or agreements.
    How am I supposed to read that comment? Is it that you--it 
doesn't impact your existing regulatory requirements or 
agreements forever, or until a new, until a new rule is in 
place?
    By the way, I assume that new rule would actually 
reclassify high-level to something less than high-level and we 
would be sitting on high-level radioactive waste that you, the 
Federal Government would consider not as high-level radioactive 
waste.
    Secretary White. So what we are doing is an interpretation, 
not a reclassification and we----
    Mr. Larsen. I don't know if there is a legal difference in 
that, but there is a common sense difference in that there is 
no difference to a lay person.
    Secretary White. So the issue with the high-level waste 
definition is that traditionally high-level waste is based on 
the source that created it. What we are doing is we are saying, 
okay, we want to determine what is and is not high-level waste 
based on the actual radionuclide content of the waste.
    And that is a sound technical decision. It is a sound way 
to look at this problem. And it is not just for a minute that 
this definition won't abrogate our responsibilities.
    We have consent orders. We have got the TPA [Total-system 
Performance Assessment]. There is NEPA [National Environmental 
Policy Act]. There is RCRA [Resource Conservation and Recovery 
Act]----
    Mr. Larsen. Yes.
    Secretary White. So we completely understand that.
    Mr. Larsen. I will continue to be very curious about how 
this goes forward, and I think I speak for the Democrats and 
Republicans in the delegation in Washington State as well, at 
least how this impacts Washington State.
    Secretary White. Can I come over and brief you in more 
detail at some point in the future?
    Mr. Larsen. I would welcome that.
    Secretary White. I would like----
    Mr. Larsen. Probably wouldn't be just me, if you don't 
mind----
    Secretary White. All right.
    Mr. Larsen. Great. Thanks.
    Secretary White. Thanks.
    Mr. Cooper. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And, Miss Gordon-
Hagerty, I thank all you of you for being here today.
    Ms. Gordon-Hagerty, currently the Savannah River Site has 
excess weapons-grade plutonium; 34 metric tons were to be 
turned into fuel through the MOX program, the mixed oxide fuel 
fabrication facility. Now, the NNSA is using the dilute and 
dispose method.
    During your Senate hearing, you promised another half 
metric ton of plutonium would be removed by the year 2020.
    What is the plan to relocate the direct shipment of the 
half metric ton of plutonium? And what is the planned timeline 
cost for the dilute and dispose method over the next 5 years to 
remove the excess plutonium out of the site?
    Ms. Gordon-Hagerty. Representative Wilson, we are under 
court order to remove not less than one metric ton of weapons-
grade plutonium from the Savannah River Site by the end of 
2019, so by January 1st, 2020.
    As you are aware, we have already removed and it has been 
noted in the newspaper, we have removed a half a metric ton of 
the material. We will remove or have already removed, one or 
the other.
    Because our class, our shipments of nuclear weapons, of 
nuclear materials obviously require the utmost operational 
security, so I am not at liberty to discuss the movements, the 
shipments, the dates, the times, the locations, the routes of 
those materials.
    But we are under court order and we will make the date by 
the end of December 2019.
    Mr. Wilson. And then as to the dilute and dispose, what is 
the timetable?
    Ms. Gordon-Hagerty. In the dilute and dispose, we are--we 
thank Congress for the support that we received last year of 
$25 million to continue with the design of the glove boxes. 
This is a planned path forward where we know we will be able to 
do so for less than 50 percent of the cost of the MOX facility.
    We will move the dilute and dispose, and we will be 
undertaking those operations in the mid-2020s. We will start to 
do the dilute and dispose--a known technology. And we have used 
that technology for more than 5 metric tons of radioactive 
waste.
    Mr. Wilson. Thank you. And Ms. White, the H Canyon at 
Savannah River Site is the only operating production-scale 
radiologically shielded chemical separations facility in the 
United States.
    Are the appropriate investments at H Canyon in both 
infrastructure and staffing being made for it to be fully able 
to process fuel that is now stored at site and additional 
materials the site continues to receive?
    Secretary White. Yes. So H Canyon continues to be a 
somewhat of a maintenance challenge. We are working through 
those issues and we have actually launched an independent 
project team [IPT] to determine in what ways we could maybe 
increase operational efficiency and address raising production 
rates out of H Canyon.
    So it is an extremely important facility to the United 
States and as you note duly, it is the only one of its kind. So 
it is a very precious resource.
    Mr. Wilson. And are there existing or new processing 
technologies that you are exploring that could be located 
within H Canyon to enhance its capabilities to complete its 
missions?
    Secretary White. Yes. We are looking at different types of 
technology. There is discussions about a hub and spoke where we 
would slowly but surely build on, different technologies, and 
the IPT is also looking at that.
    So we will have a lot to brief you on when that team gets 
done with its work.
    Mr. Wilson. Well, we appreciate it again. H Canyon is just 
so critical for our country and we want to make sure that it is 
properly used, and any missions that can be provided.
    Additionally, back again, for the design work on the 
repurpose of MOX, Ms. Gordon-Hagerty, it requires a skilled 
workforce for the success of the mission.
    What are the training recruitment incentives and programs 
that have been implemented to achieve related to the pit 
production? Are you working with local universities and 
technical colleges?
    Ms. Gordon-Hagerty. Yes. Well, not only at the Savannah 
River Site do we have the challenges with our workforce. In the 
next 5 years, 40 percent of our workforce throughout our entire 
nuclear security enterprise is retirement-eligible. So that is 
a challenge across our entire space of our eight labs, plants, 
and sites, and our field offices and our headquarters.
    We are taking on what I would consider an unorthodox, very 
challenging way of looking at hiring practices. We are actually 
going--looking at a corporate-wide approach across all of our 
labs, plants, and sites. In fact, this week we had a hiring 
team at Georgia Tech--excuse me, last week; Texas A&M this 
week; Purdue on Thursday; and then next week at University of 
California at Merced. So we are looking at different ways of 
hiring a robust workforce for our entire enterprise.
    Specifically the Savannah River Site, we are working with 
Aiken Technical College and other places around the communities 
to try to figure out what we need for our workforce strategies 
for now and in the future.
    So we are absolutely working closely with the City of Aiken 
and with the surrounding communities.
    Mr. Wilson. Well, Aiken Tech is an extraordinary facility.
    Thank you, Mr. Chairman.
    Ms. Gordon-Hagerty. Yes, thank you.
    Mr. Cooper. Mr. Garamendi.
    Mr. Garamendi. I thank you, Mr. Chairman. And for the 
witnesses, thank you for being here and your testimony.
    I want to go to a question that Mr. Hamilton, you raised. 
And my question really goes to Ms. Gordon-Hagerty.
    Why are you limiting the ability of the Defense Nuclear 
Facilities Safety Board to do its work?
    Ms. Gordon-Hagerty. Representative Garamendi, I would 
interpret our update of the 140 order as an update. It has not 
been updated within the Department of Energy for more than a 
decade.
    What we are doing is trying to make sure that we understand 
within the Department of Energy, and I hope Assistant Secretary 
White would agree with me, that what we are trying to do is 
ensure that we articulate our roles and responsibilities and 
authorities and accountability within the Department of Energy, 
because if there is an accident or significant incident, we 
will be the ones held responsible.
    So it is our obligation to ensure our health and safety is 
sacrosanct at all of our defense nuclear facilities.
    Mr. Garamendi. But you don't want anybody looking over your 
shoulder?
    Ms. Gordon-Hagerty. No, sir. That is not the case 
whatsoever. In fact, we have the Defense Board staff.
    Mr. Garamendi. But that is exactly what you are doing by 
limiting their authority and their opportunity to inspect the 
various facilities.
    Ms. Gordon-Hagerty. I would respectfully----
    Mr. Garamendi. You are limiting their authority and their 
ability to oversee your work. Why do you want to do that?
    Ms. Gordon-Hagerty. I would respectfully disagree. We 
absolutely do not. We welcome the opportunity to work with the 
Board. We continue to work with the Board closely on every 
single opportunity where it is appropriate.
    Mr. Garamendi. Do you agree with the Board's assessment 
that your letter and your order is contrary to law?
    Ms. Gordon-Hagerty. No, sir. I do not.
    Mr. Garamendi. Why do you think it is not contrary to law?
    Ms. Gordon-Hagerty. Because we believe that the Atomic 
Energy Act expressly states what the roles and responsibilities 
of the Department of Energy is.
    Mr. Garamendi. Mr. Hamilton, why do you think it is 
contrary to law?
    Mr. Hamilton. There are four specific things in the order 
that I believe are contrary to a plain reading of the Atomic 
Energy Act, and the bulk of the order is non-controversial and 
I agree with Administrator Gordon-Hagerty. I would also say 
that we have had three hearings on this topic, and we have 
heard from the Department of Energy that they don't intend to 
use these restrictions, but they are in the order and let me 
tell you what they are.
    The first one----
    Mr. Garamendi. Excuse me, did I hear you correctly, they 
tell you they do not intend to use the restrictions, but they 
are in the order, is that what you said?
    Mr. Hamilton. That is correct.
    Mr. Garamendi. Okay, please continue.
    Mr. Hamilton. And that is a matter of public record, we 
have those in hearings. The four items that are in my view 
offensive to the Atomic Energy Act are--the first one, which 
exempts DNFSB oversight from hazard category three in 
radiological facilities. Hazard category three in radiological 
facilities are something that the Department of Energy defines; 
they are not in the Atomic Energy Act.
    Secondly, the order claims to exempt the Board's oversight 
in situations where the Department of Energy determines that 
the adequate protection of the public health and safety is not 
adversely affected.
    Mr. Garamendi. So they are watching themselves.
    Mr. Hamilton. That is a specious and circular argument 
because the Atomic Energy Act gives the Board that 
responsibility.
    Third, the order directs the Department of Energy employees 
cooperate with DNSFB and provide the DNSFB with ready access to 
facilities, personnel, and information as necessary to carry 
out its statutory responsibilities. The language in the order 
leaves out the words, ``as the Board considers.'' Again, it is 
allowing the Department to determine where we can look.
    And lastly, the one I already mentioned in my opening oral 
remarks, about site boundaries. Those four items are the ones 
that we object to.
    Mr. Garamendi. I haven't been around forever on this issue, 
but the years I have been around, the Board has brought to our 
attention significant lapses within the NNSA and I am very, 
very concerned about this limitation on the ability of the 
Board to review the work of the NNSA in its entire operation. 
So I will let it go with that. In my remaining 45 seconds, back 
to the 80 pits. You said that the 80 pits are required by the 
Department of Defense [DOD], is that correct?
    Ms. Gordon-Hagerty. Correct.
    Mr. Garamendi. For what purpose?
    Ms. Gordon-Hagerty. To maintain and modernize the current 
nuclear weapons.
    Mr. Garamendi. No. Specifically, for what weapons, for what 
delivery systems?
    Ms. Gordon-Hagerty. For currently the W87-1 which is the 78 
replacement and for a number of other systems that we are 
working on right now. So it is specifically the 87-1, which has 
an FPU [first production unit] of 2030 that we have to produce 
the pits for that weapon system.
    Mr. Garamendi. And how many for that purpose?
    Ms. Gordon-Hagerty. That number is classified, but I am 
happy to go into a closed session with you and explain and have 
DOD with me.
    Mr. Garamendi. I would be happy to learn specifically all 
the way down why you need 80 per year; as simply noted in my 
seconds that are gone, that this number has expanded over the 
years without a clear explanation of why the number has 
expanded. I would appreciate a clear, fulsome explanation. I 
yield back.
    Ms. Gordon-Hagerty. I look forward to that. Thank you.
    Mr. Cooper. Mr. Brooks.
    Mr. Carbajal. Thank you, Mr. Chair.
    Ms. Gordon-Hagerty, the budget for NNSA's international 
nuclear security program which is most responsible for 
supporting security upgrades around the world is at its lowest 
levels since its nascent days in the 1990s. What could you do 
with $80 million more, $80 million more in funding for programs 
to secure nuclear material around the globe?
    Ms. Gordon-Hagerty. Eighty million dollars is a specific 
number, but I will take $80 million to secure more nuclear 
materials around the world, because that is nuclear materials 
that are less likely to fall in the hands of terrorists or 
adversaries.
    Mr. Carbajal. Yes. But what else can you do with it?
    Ms. Gordon-Hagerty. There are opportunities we can 
undertake. We can secure additional blood irradiators, some 
Cesium sources where we are doing change outs with different 
hospitals and medical-care facilities that do blood 
irradiation. We can take those materials off the street and 
help facilitate the removal of those potential radiological 
dispersal devices.
    We can do additional training around the world. We can 
encourage others and help them with security installations. 
There are a number of different things we can do around the 
world.
    Mr. Carbajal. Thank you.
    Ms. Gordon-Hagerty, new technologies are reducing the 
footprint and the detectability of proliferators in their 
attempts to acquire nuclear and radiological weapons.
    What type of technologies such as 3D printing worry you the 
most? How can NNSA and other agencies work together to combat 
these new threats?
    Ms. Gordon-Hagerty. 3D printing is, in fact, one of our 
biggest concerns as well as other things associated with 
electronic signatures and some other issues. And we can talk 
about those in a classified environment, too.
    We are working very closely with our interagency partners 
because of course the foundation of the NNSA enterprise is 
where most of the laboratories and plants throughout the NNSA 
enterprise is where the Department of Defense and the 
intelligence communities come for the technical expertise 
resident in our labs, plants, and sites and throughout the 
Department of Energy.
    So we have a very robust program with them. And again, 3D 
printing and some other efforts are very alarming. And because 
they are available publicly, they present us with some 
challenges. So therefore what we are trying to do is also 
develop countermeasures against different types of challenges 
that we are encountering.
    Mr. Carbajal. Thank you. And lastly, in today's world where 
the cooperation with Russia on nuclear security is difficult, 
what is NNSA doing to ensure we do not backtrack on global 
progress in nuclear security and counterterrorism since the 
advent of the Nunn-Lugar Cooperative Threat Program of the 
1990s?
    What new thinking or initiatives are you considering 
nationally, bilaterally, or multilaterally to build on past 
progress and focus on new threats?
    Ms. Gordon-Hagerty. We have made a great deal of progress 
since the 1990s with the Nunn-Lugar initiatives. However, we 
are limited in our interactions with our Russian counterparts, 
but we do continue to have technical exchanges with them. And 
if and when the situation presents itself, we will also 
continue to do things just as you described like the material 
security, ensuring that they continue with robust programs that 
we have helped them initiate and put into place.
    At the present time, however, we are limited with the kinds 
of cooperations that we can undertake on a bilateral or 
multilateral position with the Russians.
    Mr. Carbajal. So are you saying there is really limited 
initiatives that----
    Ms. Gordon-Hagerty. At the present time, we are limited in 
our cooperation with them.
    Mr. Carbajal. Thank you very much.
    Mr. Chair, I yield back.
    Ms. Gordon-Hagerty. Thank you.
    Mr. Cooper. Thank the gentleman.
    Mr. DesJarlais.
    Dr. DesJarlais. Thank you, Chairman Cooper and I thank the 
witnesses for being here today. Special thanks to our guests 
from Tennessee who made the trip up. I appreciate your 
expertise and for you being here.
    Ms. Gordon-Hagerty, you touched upon quite a bit of this in 
your opening statement, but I want to give you a chance to 
expand your testimony if you desire. What is included in this 
year's budget request for Y-12 specifically regarding the 
uranium production facility and investment in lithium 
production?
    Ms. Gordon-Hagerty. Our present request for the Y-12 
complex is $1.9 billion and that will be to continue operations 
mostly in canned subassemblies and the uranium work that is 
undertaken exclusively at Y-12.
    With regard to our request for additional resources for the 
UPF, or the Uranium Processing Facility, that program has 
expended $2.5 billion of a planned, projected $6.5 billion 
budget.
    We are requesting $795 million for that request this year 
to continue construction. And I am glad to say that yesterday I 
was at Y-12, and I walked the site itself and we started the 
nuclear construction, the actual activities of the actual 
process building.
    So I was actually on the site yesterday, looking at the 
facility and continuing with and seeing the great progress that 
our team is making there. And we have got some other monies and 
resources going into the efforts that they provide in 
nonproliferation, counterproliferation, counterterrorism.
    Dr. DesJarlais. Okay. So having just been there, you are 
pretty confident that the UPF program will get completed on 
time and on budget?
    Ms. Gordon-Hagerty. Yes.
    Dr. DesJarlais. Okay. What are the biggest risks to 
finishing the program?
    Ms. Gordon-Hagerty. The biggest risk there are actually the 
current and sustained funding that we require to, in order to 
be able to accomplish this and complete this mission. So it is 
really about the sustained funding that is necessary for us to 
complete this huge operation.
    Dr. DesJarlais. Thank you. What is the NNSA doing to 
support increasing the capacity for tritium production?
    Ms. Gordon-Hagerty. We are undertaking a program at the 
Savannah River Site to complete the tritium finishing facility, 
for which we are asking for, requesting $27 million for 
modernization and recapitalization of that facility.
    The tritium--tritium, a vital component in our nuclear 
weapon systems, decays as--radiologically decays, radioactively 
decays 5.7 percent per year. And so, therefore, we need to 
refurbish and to update the limited life components in our 
nuclear weapons. And in order to do so, in the weapons that we 
are retiring or modifying or bringing back for surveillance, 
we'll change out those, recapture the tritium, and then also 
produce new tritium.
    We are doing that also with TVA [Tennessee Valley 
Authority]. And we have a great relationship with TVA which is 
running our tritium bars, at which point they will irradiate 
the tritium bars. We will bring them back to the Savannah River 
Site. They will extract the tritium. We will process the 
tritium and then take it to Y-12, where they will be inserted 
into the weapons.
    Dr. DesJarlais. Okay. Similar to Rep. Wilson's questioning 
earlier, I also have concerns about how NNSA is attracting and 
maintaining and growing the entire range of skilled workers 
necessary for NNSA's mission.
    Can you explain what kind of workers you need to ensure the 
viability of the mission back home in Tennessee? Are they all 
nuclear physicists? Or are they welders, machinists, et cetera?
    Ms. Gordon-Hagerty. Yes, sir. They are all of the above. 
They are welders. They are machinists. They are wrench turners. 
They are project analysts. They are project managers. They are 
secondary designers, so they are weapons physicists. They are 
scientists. They are engineers. They are across the board.
    And that is not exclusive to Y-12 or Savannah River. It is 
at every one of our labs, plants, and sites. And like I said, 
we have undertaken an aggressive hiring strategy, not only for 
near term but for long term, for the next 20, 30, 50 years. We 
need to build the workforce of the future now.
    Dr. DesJarlais. Right. Thank you for your testimony.
    And, Mr. Chairman, I yield back.
    Mr. Cooper. I thank the gentleman.
    Ms. Horn.
    Ms. Horn. Thank you, Mr. Chairman. Thank you, all.
    Chairman Hamilton, I want to circle back to the DOE's 
recent Order 1401, I have some more questions around that. In 
your testimony and subsequent questions, you have noted that 
this order substantially circumscribes the Board's ability to 
do your legally mandated safety oversight of the nuclear 
complex.
    My first question is, do you believe that your concerns 
which you have articulated here have been taken into 
consideration by the Department?
    Mr. Hamilton. We have had three hearings and provided two 
direct letters of correspondence to the Secretary of Energy on 
this topic. We received one letter back after this first 
letter.
    And so we have dialogue ongoing. I believe, though I don't 
know and perhaps one of the other panelists might be able to 
answer the question, I believe that there is an annual first 
year review of that order coming up.
    And I am hopeful, although I don't know this in fact, that 
that will be the opportunity to correct what I see are those 
four egregious statements in the order. I am out----
    Ms. Horn. So I take it by that last part of your statement 
that you think the DOE might reconsider those sections of the 
proposal?
    Mr. Hamilton. I am hopeful they will. We have certainly 
made it clear what we object to, those things I just listed. 
And we have made that crystal clear. I know that they are 
coming up with the annual review and again, I don't know that 
they are going to fix it, but this will be a natural 
opportunity to fix it.
    Ms. Horn. So if it is not changed, if these concerns are 
not addressed, what risks and impacts to the safety and 
oversight of NNSA programs do you foresee if these aren't 
addressed?
    Mr. Hamilton. That is a great question. Thank you. I see 
actually very little direct risk to having our ability to 
access facilities and information and people, because I do not 
fall under DOE orders. I fall under the Atomic Energy Act as 
amended. And the tools in the Atomic Energy Act including 
recommendation tools, advice letters, subpoena powers, hearing 
powers, all of those tools I have, and specifically the 
statutory right to ask for reports from the Department of 
Energy.
    I have all those tools in my statutory tool kit. The 
concern is not that I can't get access from information, for 
information. The concern is that I may have to use some of 
those more tough tools, which slows down the process.
    Ms. Horn. Understood. Following on related but not directly 
to the budget and the resources that are needed to conduct this 
critical oversight that the Board performs. From last year's 
notes in the budget request, you talked about maintaining the 
workforce at approximately 100 full-time employees.
    And it appears to be similar to last year's, the proposal 
to cut the workforce by a third; and given the ramp-up of 
activity, I would like to know how you justify this decrease in 
the planned workforce from the previous year's budget request 
given the increased ramp-up in activity.
    Mr. Hamilton. The increased ramp-up of activity is I think 
and particularly the amount of budget, increased budget the 
Department has and NNSA specifically has, is counterintuitive. 
The money that is being spent is for higher quality facilities, 
replacing old Manhattan Project era buildings that are 
crumbling, adding new equipment that is of higher technical 
capability.
    So all of those things that the Department is spending 
money on are actually enhancing what is already a very safe set 
of facilities. So I see that as actually counterintuitive. The 
more money that the Department is spending on enhancing 
facilities and modernizing them actually makes my job easier.
    Ms. Horn. And just one final question as my time is about 
to expire. In this oversight, if you are saying that it makes 
it easier; do your concerns with the Order 140 remain if it 
stays as it is?
    Mr. Hamilton. My concern with DOE Order 140.1 is not so 
much that it will limit my ability to do my job. It will slow 
my ability a little bit. But I have the statutory tools to plow 
through that if I have to.
    My real concern is that it is a, the wording, those four 
things that I talked about are a direct, in my view, a direct 
contradiction from the plain language of the Atomic Energy Act.
    Ms. Horn. Yes.
    Mr. Hamilton. That is my real concern. I can get through 
this. It might slow me down a little bit but I have the 
statutory authority to get all that information.
    Ms. Horn. Thank you. My time has expired. Thank you.
    Mr. Hamilton. Thank you for that question.
    Mr. Cooper. Thanks.
    Let us have a second round of questions. To follow up on 
what Mr. Hamilton was just saying, do your powers under the 
Atomic Energy Act include things like subpoena powers?
    Mr. Hamilton. Yes, sir.
    Mr. Cooper. That's impressive. Good. Glad to know that. I 
didn't know that.
    Mr. Hamilton. We try not to use it.
    Mr. Cooper. Yes. It is much better to be friendly. Now, I 
would like to do a quick shout-out for Naval Reactors. I don't 
know a part of NNSA or government that does more more 
efficiently or complains less.
    And for them to even be happy now with a slight budget cut 
is pretty awesome. I hope all the government agencies can learn 
from that.
    Next, regarding A10 filings under the export compliance 
assistance program, I wanted to ask Ms. Gordon-Hagerty when the 
subcommittee can get access to those filings.
    Ms. Gordon-Hagerty. The Department is moving aggressively 
to provide that information, and I guarantee you that it will 
be done in the very near term, so, and then that is what the 
team is actually pulling together.
    I believe that some of the staff have already been briefed 
on the part A10s to date, but we will be providing and being 
very responsive, as responsive as we can be to the committee.
    Mr. Cooper. I was also wondering if you had any opportunity 
to check the beneficial ownership of any of the entities that 
were involved in those filings.
    Ms. Gordon-Hagerty. Yes, I have made that request. And the 
lawyers are looking at that right now, as we discussed they 
are, and I take your point and we are looking into it right 
now.
    Mr. Cooper. Right. Then, Ms. White, you were talking about 
thrift and saving money, cutting Hanford and how that needed to 
be done but I noted there was an increase at Savannah River. 
Why is that $90 million increase necessary?
    Secretary White. So as you are well aware, the budget 
process is a process. We also have a big increase in our 
production rate of treating tank waste out of Savannah River 
due to the fact that our new treatment facility SWPF [Salt 
Waste Processing Facility] will be coming online.
    Mr. Cooper. So that is the reason for the $90 million.
    Secretary White. Yes. And what that ultimately does is that 
it will greatly increase the rate at which we can remove that 
waste from those tanks, which ultimately decreases overall 
baseline.
    Thanks.
    Mr. Cooper. Unless Ms. Davis would like to ask a question 
right here. You are welcome to.
    Mrs. Davis. Okay. Thank you, Mr. Chairman. Sir, I am doing 
double-duty back and forth there. Unless this is, has already 
been asked, but I wanted to thank you, all, of course, for 
being here.
    And anyone can add on to this question. If New START 
[Strategic Arms Reduction Treaty] is not extended in 2021 and 
Russia started building past the limits of the treaty, how 
would this impact the requirements, the schedule, and the cost 
for NNSA's nuclear modernization efforts, Ms. Gordon-Hagerty.
    Ms. Gordon-Hagerty. At the present time, we are supporting 
New START and will continue to do so and at some point in the 
future decision were made whether or not we are going to 
continue with New START.
    That said, I would say that it is not possible to actually 
determine what the modernization costs would be if we chose to 
increase our nuclear weapon stockpile, which is not in 
discussion at the present time.
    I would also defer, I guess, respectfully to the Department 
of Defense to find out what, if any, requirements they are 
considering.
    Mrs. Davis. Thank you. If I could then go to your testimony 
where you were arguing that the W76-2 low-yield nuclear weapon 
gives the U.S. a credible response option and deters 
adversaries who might think the U.S. would be deterred from 
responding to a low-level nuclear attack.
    I think that this type of language actually, the low-level 
nuclear attack, suggests that the United States does not have 
credible response options. I don't find that terribly helpful. 
And I really wonder whether it could be interpreted in a way 
that is far more dangerous.
    Senior administration officials should not use this type of 
language. It weakens the credibility of the U.S. deterrent. 
There are low-yield weapons no doubt, but they are not low-
level nuclear attacks.
    So, I hope that if you would like to respond to that. 
General Hyten said before this committee last month that he is 
``ready to respond to any threat, anywhere.''
    So, can you define for me what you believe a low-level 
nuclear attack would be? Is there a threshold of nuclear attack 
at which you believe the current stockpile is not credible, as 
your testimony suggests?
    And can you describe how existing non-strategic nuclear 
weapons in the U.S. arsenal impact the existing credibility? In 
other words, are the B61 and ALCM [Air-Launched Cruise Missile] 
credible?
    Ms. Gordon-Hagerty. All of our nuclear weapons in our 
existing stockpile are credible based on different threat 
scenarios. However, the use of or the insertion of a low-yield 
ballistic missile, the W76-2, provides the Department of 
Defense and the President with a diverse type of capabilities 
against potential adversaries.
    And that is the reason why and the rationale behind the 
introduction, or I should say the reintroduction of a low-yield 
ballistic missile. We have had them in our stockpile in the 
past and we presently have them.
    This provides the Navy with the use of a submarine-launched 
ballistic missile, a capability that we don't currently have.
    Mrs. Davis. Could you go back just to my first question 
about what you believe a low-level nuclear attack would be.
    Ms. Gordon-Hagerty. I think I would defer to the Department 
of Defense on what describes a low-yield nuclear attack.
    Mrs. Davis. Low-level.
    Ms. Gordon-Hagerty. Low-level nuclear attack. In terms of 
the escalate to de-escalate, that is where the, an adversary 
perhaps attacks us and doesn't think that we have a capability 
to attack on a lower level, or if you will, or with low-yield 
in-kind nuclear weapons.
    But that is not a scenario that we envision now that we 
have, we will be reintroducing the W76-2 into the stockpile. It 
provides the Department of Defense with different capabilities 
that we didn't necessarily have.
    Mrs. Davis. Yes. I think what is difficult here is that if 
we were to make clear to our adversaries that there is no such 
thing as a low-level nuclear attack as was stated here and it 
seems as if the--our allies would certainly read that as 
enormously as escalatory and respond to us on that very basis 
if we think that is where we are starting.
    So, I guess going back to is there a threshold of nuclear 
attack of which you believe the current stockpile is not 
credible as your testimony suggests?
    Ms. Gordon-Hagerty. As I have suggested, based on the 
Nuclear Posture Review, the reintroduction of a low-yield 
ballistic missile into the stockpile will provide us with 
credibility and a robust nuclear deterrent not only for the 
United States but for our friends and our allies.
    Mrs. Davis. And what would you call the next level after 
low, what would you call the next level?
    Ms. Gordon-Hagerty. Deterrence.
    Mrs. Davis. Thank you.
    Mr. Cooper. Does the ranking member have an additional 
question?
    Mr. Turner. Yes. Thank you. So from low-yield nuclear 
weapons, I am changing the topic to nuclear reactor, so I want 
to make sure that it is not confused.
    So, on nuclear reactors, low-enriched nuclear capacity for 
nuclear, for naval reactors, could you speak about that for a 
moment, Ms. Gordon-Hagerty--benefits, pros, cons, cost, and the 
like.
    Ms. Gordon-Hagerty. So to the extent that we would be 
using, I am presuming you are referring to low-enriched 
uranium.
    Mr. Turner. Low-enriched uranium.
    Ms. Gordon-Hagerty. We have continued to study the 
capabilities to consider for naval reactors low-enriched 
uranium fuel. Highly enriched uranium provides us with military 
advantage.
    I defer to Admiral Caldwell, the Deputy Administrator for 
Naval Reactors, that can speak more to the complexities about 
using low-enriched uranium vice high-enriched uranium.
    Mr. Turner. Thanks for that, and I apologize for the 
transition of low and low because they are very, very different 
topics, but thank you.
    Admiral Caldwell. Yes, sir. Again, James Caldwell, Director 
of Naval Reactors.
    Sir, we have a long history of using highly enriched 
uranium in our program. It has allowed us to build reactor 
cores that have long lives.
    In fact, today, our aircraft carriers are refueled about 
the 23-, 25-year point and then last for a total of 50 years. 
All the submarines we are building today have life-of-the-ship 
reactors.
    Everything we do in our program is designed around the use 
of highly enriched uranium, from the design of the core to the 
procedures for defueling and refueling, to the procedures for 
shipment and the procedures for packaging.
    Low-enriched uranium would be a completely different 
approach. Essentially, it would mean you would be loading less 
energy into a reactor core, which means that you would have 
either, you would have to refuel the vessel more frequently or 
have a larger reactor so you could load more energy into that 
core, or potentially you have to build more ships to be able to 
achieve the same amount of deployed operations that you have 
today.
    In 2018, the Secretary of Energy and Secretary of the Navy 
signed a joint letter determining that we should not pursue a 
low-enriched uranium core for naval applications.
    Mr. Turner. Is there an issue with the aggregate of waste 
produced, even though the waste would have different----
    Admiral Caldwell. The waste would have different 
characteristics and we would have to deal with that. We would 
have to engineer that. And that would require some change. The 
real issue is whether you are not able to load the amount of 
energy in the core and the same configuration and get the same 
amount of lifespan out of it.
    So you would have to make significant additional 
investments in refueling reactor plants to keep that ship 
operating for longer periods of time. The cost to go after a 
program to develop such a capability, we determined that in a 
2016 study, directed study that said it would be about a $1 
billion and it would take 10 to 15 years to just develop that 
capability.
    That does not include the amount of money it would take to 
deploy, in other words to actually build the reactor and tune 
all of those systems I talked about from refueling, to 
transport, to storage. And that could be literally billions of 
dollars on top of that.
    Mr. Turner. Thank you for the clarification.
    I yield back.
    Mr. Cooper. I am not certain if Mr. Wilson, Mr. Garamendi?
    Mr. Garamendi. I want to go back to the pit production. 
Perhaps this would have to be done in a classified setting. But 
it was argued earlier that the pits were required for a new 
nuclear weapon, the IW2.
    That is no longer in play, I understand, instead we are now 
building new pits for the W78. Is that correct?
    Ms. Gordon-Hagerty. Yes, that is correct. And that is based 
on the fact that we have seen plutonium aging. There are 
systems in the current 78 that don't lend itself to a life 
extension program as we have traditionally done, such as with 
the 76-1 that we have just completed.
    So in order to ensure that we can extend the life of that 
required system, we are going to use the current 87 and turn it 
into an 87-1, which will be the, what we are calling the 78 
replacement, which is the 87-1.
    In order to do so, it will provide us with the more robust 
system. These are not new nuclear weapons. They are just 
modernizing our existing nuclear weapons.
    Mr. Garamendi. Well, that could be debated, but not 
particularly useful at this moment. What is that new, excuse 
me, modernized nuclear weapon for?
    Ms. Gordon-Hagerty. It is for the 78 replacement for the 
system for the Ground-Based, the GBSD, the Ground-Based 
Strategic [Deterrent].
    Mr. Garamendi. For the new multi-, tens-of-billion-dollar 
ground-based replacement for the Minuteman II and III.
    Ms. Gordon-Hagerty. Minuteman III.
    Mr. Garamendi. What is the total cost of that?
    Ms. Gordon-Hagerty. That program will be, do you have total 
lifecycle cost, Charlie?
    One second.
    Mr. Garamendi. Added that you are not responsible for the 
missiles or the missile silos or the command and control system 
and all the rest.
    Ms. Gordon-Hagerty. No, sir.
    Mr. Garamendi. What is the cost of the W78 replacement 
which I guess we now call the W87-1?
    Ms. Gordon-Hagerty. W87-1 modernization program, this year 
we are requesting $112 million for a total of--Charlie, you 
want to come up to the table?
    This is Dr. Verdon, if I may. Dr. Verdon is the Deputy 
Director for--Deputy Administrator for Defense Programs.
    Mr. Verdon. So right now, sir, it is in its very early 
stages. We have a range of designs that the cost would range 
from $12 billion to an upper end of $15 billion, but that we 
will be backing down and choosing the options that we actually 
implement on it right now.
    Mr. Garamendi. So we are really starting on something new 
here even though it is not a new weapon, it is a replacement 
weapon, a modernized weapon, but yet it is new.
    Mr. Verdon. It is a modification to the Legacy 87 system.
    Mr. Garamendi. Oh, we're the ones that play games with 
words [inaudible].
    Mr. Verdon. No. That is officially what it is--it is called 
modification because it is based on the Legacy 87 system.
    Mr. Garamendi. Okay. We won't get any further on that one. 
The Savannah River plutonium program is in abeyance. The 
disposition of the plutonium at Savannah River is in abeyance, 
it is not moving forward, is that correct?
    Ms. Gordon-Hagerty. That would be the MOX facility, yes. 
That was terminated on May 10th of 2018.
    Mr. Garamendi. And what is the plan for the disposition of 
the----
    Ms. Gordon-Hagerty. The planned path forward is to use what 
we call our surplus plutonium disposition plan, which will cost 
much less than the planned MOX facility, in fact, much less, 40 
percent of the total cost and it will be faster, cheaper, and 
quicker, more safe to remove the 34 metric tons of excess 
plutonium.
    Mr. Garamendi. And what is that?
    Ms. Gordon-Hagerty. Total lifecycle cost is $18 billion 
over the entire life cycle.
    Mr. Garamendi. And what is it that you are doing?
    Ms. Gordon-Hagerty. It is actually taking the materials. It 
is a very simple process actually. You are taking the plutonium 
waste, mixing it with a material where it cannot be reused, and 
then we will permanently place it at WIPP, at the Waste 
Isolation Pilot Plant.
    Mr. Garamendi. Use your language correctly.
    Ms. Gordon-Hagerty. I am sorry.
    Mr. Garamendi. Carefully. You are spiking it so that it 
cannot be used as a weapon, is that correct?
    Ms. Gordon-Hagerty. Yes, sir, so that we cannot--no longer 
use it.
    Mr. Garamendi. But can it be reprocessed? The answer is 
yes, it can. And how will you then ultimately dispose of this 
spiked plutonium?
    Ms. Gordon-Hagerty. This material will be emplaced at the 
Waste Isolation Pilot Plant at--in New Mexico.
    Mr. Garamendi. Retrievable? Yes.
    Ms. Gordon-Hagerty. It is put in salt in--1,950 feet below 
ground in salt caverns.
    Mr. Garamendi. In a facility that has had some problems. 
Yes, it has had some problems. So you are spiking it, you are 
putting it in the WIPP facility, and there it sits.
    Ms. Gordon-Hagerty. Yes, sir, like----
    Mr. Garamendi. Okay. Why are you not using any of the 34 
tons of plutonium that now exist? And why are you then 
developing new pits?
    Ms. Gordon-Hagerty. Sir, we are using our materials for 
defense-related needs for the pits, for the remanufactured pits 
for the 87 program. So that is actually what we are doing when 
we are making these not less than 80 pits per year.
    We are actually using some of defense programs material 
that we have set aside. In fact, the half a metric ton that is 
currently staged at the Nevada National Security Site will 
ultimately make its way to Los Alamos for use in the 87 pits.
    Mr. Garamendi. Thank you. I see I am past my time. Thank 
you.
    Mr. Cooper. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, again, what is your assessment of the need to 
repurpose the MOX facility for the plutonium pit production?
    Ms. Gordon-Hagerty. The Department of Defense and the 
Nuclear Weapons Council stated that the Department of Defense 
requirements are for not less than 80 pits per year beginning 
in 2030. And at which point several years ago, we conducted an 
analysis of alternatives, and then eventually followed on by an 
engineering assessment that stated the different approaches 
under which we could produce that not less than 80 pits per 
year were several options. We skinnied those down to 
approximately four options of which three were at the Los 
Alamos National Laboratory which would undertake significant 
resources to be--to build out additional facilities there. Or 
because we were approaching the plan to terminate the MOX 
facility, we could repurpose that partially constructed 
facility which we thought was the most appropriate way to go. 
It would also provide us with a resilient and redundant 
capability, a capability that we have not had in this United 
States since the late 1980s, early 1990s.
    Mr. Wilson. And so the justification for the two-pronged 
approach is, you feel, very clear.
    Ms. Gordon-Hagerty. Very clear that clearly our United 
States needs a redundant and resilient capability for future 
nuclear weapons stockpile requirements. And the time is long 
past that we have maintained--that we retain or obtain a 
capability to produce nuclear weapon pits. And doing it at Los 
Alamos will not get us to achieve, to the required 80 pits per 
year.
    Mr. Wilson. And you've done the cost analysis of Los 
Alamos, Savannah River Site, as to not have a two-pronged 
approach?
    Ms. Gordon-Hagerty. Yes, sir, we have. And we will not meet 
the, it is challenging as it is. Let us be frank, 2030 is only 
11 years away. And that is challenging in and of itself.
    To try to then identify other needs and start to build new 
facilities and additional facilities to our current operations 
at Los Alamos while we are maintaining or getting to a place 
where we will be producing 30 pits per year in perpetuity 
starting in 2026 makes it even more challenging. And we will 
not be able to get to that 80 pits per year required by the 
Nuclear Weapons Council.
    Mr. Wilson. And I appreciate your clarity on this.
    And, Ms. White, thank you for including in the budget the 
funding to the Advanced Manufacturing Collaborative [AMC] to be 
located very likely at the University of South Carolina Aiken.
    The AMC will not only allow experts in emerging 
technologies to collaborate with industry, academia, and 
government to improve the manufacturing, but also assist the 
DOE complex by accelerating technology development for the 
cleanup mission.
    Can you comment on the importance of this facility and the 
success of similar facilities across the DOE complex?
    Secretary White. Yes. So the AMC project is very exciting 
and it is allowing us to make some investments in Savannah 
River National Lab, which will be very important, that is EM's 
only lab and EM operates it. And also too, when I looked at 
some of mock-ups at that facility, one thing that I think will 
be very important about its future is that is exactly the kind 
of facility that is going to attract next-generation workers. 
And there is going to be, I believe, a lot of excitement around 
it and that is something we need in EM just as in NNSA.
    Mr. Wilson. Thank you. I yield back the balance of my time.
    Mr. Cooper. I thank the gentleman.
    I wanted to ask Mr. Hamilton quickly. On page 5 of your 
testimony, you talk about four waste drums at the Idaho 
National Laboratory that underwent over-pressurization, 
ejecting their lids and spreading radiological waste. You go 
ahead and call it the potential for a deflagration, a word I 
have never heard of before.
    It would seem like by 2018, we should know how to store 
nuclear wastes. I know WIPP had a problem with the kitty 
litter, organic versus inorganic.
    But why can't we get this right?
    Mr. Hamilton. Thank you, Mr. Chairman. The four drums that 
you are talking about at the Idaho Advanced Retrieval Project 
that essentially exploded and were inside of a containment, was 
a near miss. The building that it was inside was not occupied 
at the time because it happened at night. So there was some 
degree of luck that nobody was there to get hurt.
    The specific answer to your question is, all of that waste 
that is in those fields, that came, most of that came from the 
decommissioning of the prior plutonium facility that we had in 
Colorado, Rocky Flats.
    When that was done, there were, what I would say is, 
marginal records kept of what was in which drums that were 
buried. And so there is some degree of uncertainty in what is 
being dug up as regards to what came from Rocky Flats and when 
it came. As best as can be done, the project uses the records 
they have, but it is not a perfect science.
    One thing I will tell you, and this is why I am not 
personally losing a lot of sleep over this particular event, 
90-plus percent of the drums that are being unearthed and 
reprocessed, over 90 percent are complete. This is the first 
event that occurred like this. So there is some risk in every 
operation that you are going to get a mix of the wrong things.
    I will tell you that I personally am convinced that what 
Ms. White and her team have done to mitigate problems with 
future repackaging is an appropriate and reasoned approach to 
prevent this happening.
    We are actually having a hearing on this in May to probe a 
little bit more deeply and we have some of our top talent in 
our staff digging into some of the details; but it is a very 
complex mix of unknowns, and there is just some random 
opportunities in there for this kind of thing.
    It is not a very satisfactory answer, but the reality is, 
like I said, 90-plus percent of this has been done. We haven't 
had an event. So we had this one event and they put the things 
in place, the process in place they think will mitigate it. And 
I think that--I think it will.
    Did I answer your question, Mr. Chairman?
    Mr. Cooper. Well, since in your response you used the word 
explosion and this involves nuclear waste, I don't think the 
public would find your answer to be very persuasive, because 
the folks I talk to back home want zero defect handling of 
nuclear material----
    Mr. Hamilton. Just----
    Mr. Cooper. Zero----
    Mr. Hamilton [continuing]. For clarity, what happened was 
that there was material in those four drums that overheated and 
caused the lids of those drums, caused pressure inside the 
drums and caused those lids to pop open. And when that happened 
the material inside there came out into the space.
    I call that an explosion but maybe that is a politically 
charged word that is not a good one to use, but it did pop out 
into that space.
    Mr. Cooper. We are here to do the best possible job for the 
taxpayer and when it involves nuclear, that usually means zero 
defects. WIPP, as you know, was shut down for years as result 
of a mistake.
    As I was saying, this is 2019, we should be able to get 
this right. There should be a process with quality controls in 
place so that no mistakes are made. Am I asking too much?
    Mr. Hamilton. My charter under the Atomic Energy Act and 
specifically under the legislative history is a recognition 
that zero risk is unattainable. That is in the history of the 
legislation that created my Board. So my approach to the 
adequate protection of the public health and safety is not zero 
risk. It is something approaching as good as we can get.
    And it is a subjective term, but I am not chartered to 
establish zero risk. That is clear from my reading of the 
legislative history, and I think the only way to have zero 
risk, Mr. Chairman, is not to do anything and that is certainly 
not an option. So there is risk involved in everything we do.
    The question is, are we doing what is enough to adequately 
protect the public health and safety? And in my view, we are.
    Mr. Cooper. I think the real answer is somewhere between 
the 90 percent figure that you mentioned in your response and 
99.9999----
    Mr. Hamilton. My 90 percent was how much has been 
processed.
    Mr. Cooper. Okay. Okay. Well, I think the public wants to 
see the best that we can possibly do is the best that can be 
done by human beings, that we are not trying to cover up our 
own inadequacies, that we are not hiding the ball, and I was 
just surprised reading this in your testimony.
    I think your Board does an excellent job. We want to keep 
you in business. But I was just kind of struck, 2018, stuff 
like this happens.
    Mr. Hamilton. I don't think there has been any effort or 
intent to minimize this. As far as I am concerned----
    Mr. Cooper. But what if WIPP gets shut down again for 
several years? You know, these are problems we--Ms. White, you 
have been itching to talk?
    Secretary White. Sorry, I just, we take these things very, 
very seriously in EM. And as someone who actually worked in the 
field and benefited from the safety culture throughout my 
career, I can assure you we take every effort to absolutely 
understand every piece and part of the process, and as Mr. 
Hamilton noted, it can never go to zero, although I really wish 
it could. And we----
    Mr. Cooper. Yes. But we can solve the kitty litter problem. 
Like if inorganic kitty litter works, let us stick with that, 
not go with the organic kitty litter.
    Secretary White. Right. Yes. So we have very detailed 
information on both this event and our response to it. And I 
would be very, very happy to come and give a more detailed 
briefing, because I think you would find our efforts are 
substantial and we take these things very seriously.
    Mr. Cooper. The ranking member.
    Mr. Turner. I just want to say, first off, thank you for 
all of the expertise that you guys bring to bear in all aspects 
of our review and decision making and discernment as to what 
paths we need to go in, how we need to correct what we are 
doing.
    Ms. Gordon-Hagerty, you said your workforce, it is not just 
your testimony today, it is the workforce that stands behind 
you that goes to great lengths to ensure safety.
    So having said that, I just want to say I absolutely agree 
with the chairman, there is no margin of error here.
    Mr. Hamilton, I greatly appreciate your reality check of 
the statement of the mission that you have, and that in part we 
look to you guys to be ingenuity, to create, to invent. As you 
are looking to our safety, you have to invent ways to create 
that safety. So I--but at the same time, I commend you and I am 
great appreciative of what you are doing.
    I must agree with the chairman here in that I think 
everybody views this as no margin of error even though that, 
Mr. Hamilton, I recognize is an impossible task.
    So thank you all for trying to rise to that impossible 
task.
    Mr. Cooper. Concluding note unless the ranking member has a 
response to this. Just look behind you, naval reactors, there 
is a problem on a submarine, people die. The Navy has done a 
superb job of making the risk as close to zero as any human 
being could possibly imagine. So why don't we follow that 
sterling example?
    Mr. Garamendi, back in time for the third round of 
questions if you would like.
    Mr. Garamendi. You were just raising the hammer.
    Mr. Cooper. I was poised. The witnesses are hoping that I 
will hit the block.
    Mr. Turner. I am hoping that you will hit it.
    Mr. Garamendi. I want to go back to the W87 and it is to be 
used as a replacement for the W78 for the new ground-based 
deterrence system.
    Well, let me put it this way.
    Has an AOA [analysis of alternatives] been conducted to 
determine that you need a new, excuse me, you used the word 
modified weapon to replace the W78 on what is essentially a 
missile for the same purpose. Has an AOA been done to determine 
that you need that?
    Mr. Verdon. Yes, sir. An AOA has been done and it folded in 
both the military's requirements which were to improve the 
safety and security of the warhead, as well as NNSA's 
requirements which has an overarching whenever we get the 
opportunity to improve the safety and security.
    It was also that the Air Force desire is to move to a 
single air shell fleet called the Mark 21. And so that was the 
warhead that emerged as to address the military's requirements 
both from STRATCOM and the Air Force as well as NNSA's 
requirements.
    Mr. Garamendi. In the appropriate forum, I want to go into 
that in much more detail if you would. We will have that, I am 
sure, at some time in the future.
    Also, my understanding is there never, never has been a 
low-yield warhead on an SSBN [ballistic missile] submarine.
    Ms. Gordon-Hagerty. That is correct.
    Mr. Garamendi. That is correct.
    Ms. Gordon-Hagerty. That is correct. I think I stated that 
we had a low-yield--we had a low-yield weapon in our stockpile.
    Mr. Garamendi. Yes, you do.
    Ms. Gordon-Hagerty. Yes.
    Mr. Garamendi. It is the 21. However, there has never been 
a low-yield ballistic missile or warhead on an SSBN. Is that 
correct?
    Ms. Gordon-Hagerty. Yes, correct.
    Mr. Garamendi. So this would be the first time.
    Ms. Gordon-Hagerty. Yes.
    Mr. Garamendi. And that raises another set of questions for 
another day. I have kept you too long, Mr. Chairman, thank you.
    Mr. Cooper. It looks like there will not be a fourth round 
of questions. Let the panelists rejoice. The hearing is 
adjourned.
    [Whereupon, at 4:54 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             April 9, 2019
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 9, 2019

=======================================================================

      

                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 9, 2019

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. COOPER

    Mr. Cooper. The MOX facility cancellation and subsequent 
repurposing for plutonium pit production has been done without a 
competitive bid process. The President's Budget requests $410 million 
for plutonium activities at the Savannah River site. This request 
includes design activity and a plan for a Critical Decision (CD)-1 in 
FY 2020 for the plutonium pit production facility. Given the lifecycle 
costs that DOE has identified for plutonium pit production at Savannah 
River (at least $14 billion), and the complexity in repurposing a 
facility designed for a different purpose, how can the NNSA assure 
Congress and the taxpayer that design and subsequent construction will 
be done properly, in a cost-effective manner without a competitive bid 
process? Why hasn't NNSA allowed for competitive bidding process for 
the design of this facility? Does NNSA plan to consider competitively 
bidding this project at any point? If so, when?
    Ms. Gordon-Hagerty. NNSA utilized the current Savannah River 
Nuclear Solutions contract for the conceptual design that is underway. 
This conceptual design effort is within the scope of the existing 
contract. The lifecycle costs were estimated in the Engineering 
Assessment Report to support the Analysis of Alternatives for 
comparison purposes only. A lifecycle estimate and an Acquisition 
Strategy are required by DOE O 413.3B (Program and Project Management 
for the Acquisition of Capital Assets) at Critical Decision-1. NNSA 
will develop this Acquisition Strategy to detail procurement plans for 
the remainder of the project. Further, NNSA is required to follow DOE O 
413.3B which defines management for a DOE nuclear project and provides 
a set of requirements to provide maximum confidence for the proper 
execution of a project.
    Mr. Cooper. Mr. Hamilton, in your testimony you noted that the four 
waste drums at the Idaho Advanced Retrieval Project which exploded were 
a ``near miss,'' and that there was ``some degree of luck that nobody 
was there to get hurt.'' Yet you were the one Board Member to vote 
against the Board's recommendation, which simply requested additional 
information from the Department. Why? Further, you note that there is 
uncertainty around what is in the last 10% of drums left for 
processing. What gives you confidence that this--or something worse--
will not occur again, particularly given the uncertainty around the 
material in the remaining drums and poor record keeping at Rocky Flats, 
where the drums originated?
    Mr. Hamilton.<dagger> On April 11, 2018, four waste drums at the 
Idaho National Laboratory underwent over- pressurization, ejecting 
their lids and spreading radiological waste inside the Advance 
Retrieval Project (ARP-V) structure. The event occurred at night when 
the facility was unoccupied and no workers were present; a near-miss, 
but nevertheless an event to be taken seriously. The Department of 
Energy subsequently determined that waste in the drums generated 
methane gas, causing the event, and additional controls were placed in 
effect to address the underlying cause. It is my view that the 
additional controls, coupled with the fact that over 90% (the more 
precise figure is 97%) of the targeted waste had already been process 
without a similar incident, demonstrates adequate protection of the 
public health and safety.
---------------------------------------------------------------------------
    <dagger> Mr. Hamilton sent his answers with a May 7, 2019, cover 
letter that read, in part: ``Since your correspondence and the three 
enclosed questions were addressed directly and specifically to me and 
not to the Defense Nuclear Facilities Safety Board as a whole, I have 
provided my responses only from my perspective. The answers may not 
reflect the views of my fellow Board Members or the collective view of 
the Board.''
---------------------------------------------------------------------------
    On March 4, 2019, the Board approved sending correspondence to the 
Secretary of Energy (subsequently transmitted on March 12, 2019) 
opining that DOE does not have effective controls to prevent or 
mitigate such deflagrations, a position on which I disagree. More to 
the point, the correspondence invoked the statutory authority of the 
Atomic Energy Act (as Amended), 42 U.S.C. Sec. 2286b(d). It required 
that DOE provide a briefing with analysis or supporting data to address 
six detailed questions related to this event as well as to 
programmatical concerns pertaining to the complex-wide environmental 
cleanup. I did not concur with the majority who voted to approve this 
correspondence.
    In my dissent, I noted the following:

        ``42 U.S.C. Sec. 2286b(d) authorizes the Board to, ``. . . 
        establish reporting requirements for the Secretary of Energy. . 
        . .'' The Board should generally practice a narrow 
        interpretation of its statutory authority to require reports. 
        This authority should be used with discretion, such as when 
        information has been difficult to obtain through informal 
        staff-to-staff interaction or when periodic recurring reports 
        on program status are warranted. 42 U.S.C. Sec. 2286b(d) 
        authority should not be used as a mechanism to convey either an 
        explicit or an implied suggestion for the Secretary to carry 
        out an activity. In this case, that appears to be the message.

        ``Likewise, 42 U.S.C. Sec. 2286b(d) should not be used as a 
        surrogate for a formal Recommendation. In the event the issues 
        identified in the Staff Issue Report, either individually or in 
        their totality, challenge the '' adequate protection of the 
        public health and safety, '' the statutorily appropriate path 
        would be to recommend action to the Secretary of Energy. In 
        this case, there is no indication that this threshold has been 
        reached.''

    In other words, I believed the Board already had sufficient 
information to evaluate the risk associated with this event as well as 
the broader complex-wide related question. Further, I evaluated that 
risk as not rising to the threshold of challenging the adequate 
protection of the public health and safety. Even so, I did not vote 
against a subsequent motion made before the Board to hold a public 
hearing in May 2019 on safety management of waste storage and 
procession in the defense nuclear facilities complex.
    In my view, DOE has in fact put in place the additional controls 
needed to ensure the adequate protection of the public health and 
safety. That adequate protection persists is further informed by the 
fact that most of the targeted waste was already processed event-free 
even without those controls. There will always be a chance that another 
event of this or of a different nature may occur, particularly given 
the uncertainty around the material in the remaining drums and the poor 
record keeping at Rocky Flats, where the drums originated. That said, 
confidence that something won't occur is not the standard specified in 
the Atomic Energy Act (as Amended). Rather, the standard to which I am 
obliged is that of adequate protection of the public health and safety.
    In the spirit of your question, I offer the following additional 
thoughts on just what I consider ``adequate protection'' means.
    The Atomic Energy Act (as amended), at 42 U.S.C. Sec. 2286a(a), 
states that, ``The mission of the Board shall be to provide independent 
analysis, advice, and recommendations to the Secretary of Energy . . . 
in providing adequate protection of public health and safety at . . . 
defense nuclear facilities.'' The AEA does not further define the term 
``adequate protection,' and the legislative history of the Board 
[Congressional Record vol. 134, House Conference Report No. 100-989, 
Sept. 28, 1988] at p. 488 explains why:

        ``Adequate protection'' is the level of safety required of 
        commercially licensed nuclear facilities. . . . The conferees 
        believe that it is appropriate to require the same general 
        level of safety from DOE nuclear facilities as is required of 
        commercial facilities. The conferees recognize that specific 
        standards recommended by the Board for achieving adequate 
        protection may not necessarily be the same as those applied to 
        commercial facilities, to the extent that DOE and commercial 
        facilities are significantly different.

        As applied to commercial facilities, the standard of adequate 
        protection means ``reasonable assurance that the health and 
        safety of the public will not be endangered by the operation of 
        the facility. . . . Absolute certainty or perfect safety is not 
        required. What constitutes ``reasonable assurance of adequate 
        protection'' is subject to change as the state of the nuclear 
        safety art advances. The Board will be responsible for weighing 
        such factors as technical feasibility, the risk of accidents, 
        the record of past performance, the need for further 
        improvement in nuclear safety, and other considerations. The 
        conferees believe that such factors should be balanced by the 
        Board when the adequate protection standard is applied.

    This Report also quotes, at p. 489, from a case heard by the U.S. 
Court of Appeals for the District of Columbia, Union of Concerned 
Scientists v. NRC, 824 F.2d 108, 118 (D.C. Cir. 1987) which states:

        NRC need ensure only an acceptable or adequate level of 
        protection to public health and safety; the NRC need not demand 
        that nuclear power plants present no risk of harm

        The level of adequate protection need not, and almost certainly 
        will not, be the level of ``zero risk.'' This court long has 
        held that the adequate-protection standard permits the 
        acceptance of some level of risk.

    Additionally, the Committee on Armed Services Report to accompany 
S. 1085, the Nuclear Protections and Safety Act of 1987, Report 100-232 
at p. 20 states:

        It is important that the Board be supplied with a sense of 
        priority, and be focused on significant risks and consequences 
        to public health and safety. . . . The Committee intentionally 
        declines to go beyond establishing an adequate protection 
        standard as a matter of policy and legislative intent, and 
        renders no judgment as to the appropriateness of requiring 
        ``comparability'' with particular commercial standards imposed 
        by NRC.

    From this background, there emanate several key elements in 
understanding ``adequate protection'' as it applies to defense nuclear 
facilities. First, the ``adequate protection'' criterion does allow for 
risk. Lawmakers understood that there would always be some risk present 
in the nuclear enterprise and that absolute certainty or perfect safety 
is an unobtainable standard. Second, what constitutes ``adequate 
protection'' will change with time, as the technology and our knowledge 
base change. Third, Congress established the Board (just as it did the 
Nuclear Regulatory Commission) using an informed and experienced group 
of nuclear field experts for the very purpose of weighing their 
differing views on what constitutes ``adequate protection'' in order to 
come to a balanced conclusion. In the final analysis, Congress declined 
to provide an objective definition of ``adequate protection,'' instead 
deferring to the collective and subjective wisdom of the Board.
    Every human endeavor involves risk. The only way to ensure no risk 
in an endeavor is to do nothing. But even the absence of such action 
brings with it risk. Not having a nuclear arsenal would guarantee zero 
risk to the public from that program, but what would be the national 
security risk to our republic without nuclear weapons in a world where 
others have them? Certainly not zero.
    If we decision-makers accept the premise that we need a weapons 
program, even if it does bring with it some risk to public health and 
safety, then the next question we must answer is, ``How much risk do we 
accept?'' We aspire to use all of our scientific and mathematical tools 
of analysis and statistics to find an objective answer, but an 
objective answer always remains elusive, beyond our grasp. That means 
we must eventually be subjective, accepting that each human being has a 
different risk profile, and that every American places a different 
value on the importance, or even existence, of our nuclear weapons 
program.
    We also know that there will always be a chorus of critics 
insisting that if the regulator, or in our case independent overseer, 
simply prevents engagement in risky behavior then no one will be 
harmed. We know that should something go wrong, we will receive blame. 
That creates concern on our part which can, and frequently does, lead 
to a regulatory mindset that too often results in our coming down on 
the side of less and less risk, with little concern for cost, both in 
dollars and in the effectiveness of the nuclear deterrent.
    Congress long ago came to the conclusion that there is no easy 
answer to the question, ``Is it safe enough?'' That's why Congress, in 
its wisdom, established a five-Member Board: to provide a balance in 
competing views on an issue which addresses relative values, and is 
therefore as much a political question as it is a technical one. While 
all Board Members should have in common a technical background in the 
field, Congress expects that each Member will bring to the table his or 
her independent views in order to balance competing risk profiles. 
Coming to a conclusion on what is ``safe enough'' starts out as an 
objective analytical exercise, but in the end it includes the 
subjective balancing of the ``gut feel'' of the individuals on the 
Board. This is as it should be, for if adequate protection could be 
defined in strictly objective terms, Congress would have long ago done 
so and would have dispensed with the Board in favor of a single 
Administrator.
    I support a strong national defense; one of the plainly 
Constitutional functions of our Republic's government. A key component 
of our defense is a strong, safe, secure and reliable nuclear weapons 
arsenal. I have also sworn an oath to our Constitution to abide 
faithfully by and execute the laws of the land. In my role on the 
Board, the specific statutory language at play is to ensure the 
Secretary of Energy is informed when the public is not adequately 
protected from activities and accidents within the DOE's weapons 
complex. I take that obligation most seriously. At the same time, I am 
sensitive to the reality that safety can be used as an excuse to 
constrain operations. I also know that humans, when given the power to 
regulate, or in the Board's case to advise, tend in the direction of 
more rather than less.
    The Department of Energy's safety posture today is both excellent 
and in continuous improvement. I am convinced that the leadership and 
the workforce in DOE, both federal and contracted, actively embrace 
safety. I know from personal dialog and observations of their words and 
actions that the DOE political appointees and senior executives with 
whom I have had the most frequent contact hold nuclear safety 
sacrosanct and that they consider it their ultimate professional 
responsibility. I am completely confident that they not only believe 
that safety is vital to their operations, but that they have 
internalized and fully accepted that obligation. This is not a 
politically partisan characteristic. I have observed the same passion 
for safety in both the Obama and Trump Administrations. I consider that 
the nuclear weapons complex today, including both active and legacy 
activities, is one of the safest industrial undertakings in our modern 
world. But compared to what?
    We are surrounded by risk. According to the Bureau of Labor 
Statistics, in 2017 there were 5,147 fatal work injuries, 887 from 
falls alone, and 123 from exposure to harmful substances in U.S. 
industry. Amtrak accidents killed 1 in 2018, 3 in 2017, and 8 in 2015. 
A 2016 train derailment of 14 cars just 2 miles from the Capital at 
Rhode Island & 9th dumped toxic Sodium Hydroxide, ethanol and other 
substances into the city, another near-miss with no fatalities. A 2013 
explosion at an ammonium nitrate fertilizer plant in West, TX killed 
15. The BP oil disaster in the Gulf of Mexico, Deepwater Horizon, 
killed 11 in 2010. A 2008 explosion in a sugar refinery killed 13. A 
2005 Texas City refinery explosion killed 15. While not occurring in 
the United States, the two recent crashes of American-manufactured 
Boeing 737MAX aircraft killed 189 in Indonesia and 157 in Ethiopia. 
Last year's Camp Fire in the Sierra Nevada foothills razed 14,000 homes 
and killed 85 people. Credit for this tragedy can be directly 
attributed to risks incurred by not implementing wildfire-prevention 
projects because they were contrary to environmental regulations. And 
of course, most horribly, auto fatalities on U.S. highways killed 
37,133 in 2017, which is a typical annual number. These are the tragic 
outcomes of real risks in America today.
    Comparisons across industries are imperfect and metrics are 
elusive. While they don't directly cross-compare to threats to the 
adequate protection of the public from defense nuclear facilities, they 
subjectively help to inform my determination of relative risk. In the 
entire history of the DOE/AEC/Manhattan Project activities spanning 
over 75 years, there have been six fatalities which were unambiguously 
attributed to radiation exposures or traumas from accidental 
criticalities. The most recent of these occurred over a half-century 
ago. That is an exception record of safety.
    Granted, I am only considering clear-cut acute fatalities, not 
other health effects from environmental challenges and low-level 
exposures that could possibly contribute to premature deaths. Doing so 
would quickly overwhelm us with subjective data and would embroil us in 
controversies such as the scientifically dubious linear no-threshold 
hypothesis. That notwithstanding, the orders of magnitude comparisons 
in non-acute health challenges are similar. The fact of the matter is 
that, for all of the fear and misunderstanding in the public domain, 
America's nuclear weapons complex has always been extremely safe when 
placed in the context of other hazards in our modern world, and today 
it is even safer than ever.
    Please do not misunderstand me. The stellar nuclear safety record 
of the Department of Energy must never be taken for granted. Continual 
vigilance is the price paid for that record, and the Board's mission in 
that vigilance is as important as it ever has been. The superlative 
staff supporting the Board, the seriousness which I have observed that 
my fellow Board Members take their jobs, and my personal dedication, 
are indicative of that vigilance, even as in final decisions we come to 
differing conclusions on the threshold of adequate protection of the 
public health and safety.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. DAVIS
    Mrs. Davis. During your testimony, when asked what the next level, 
above ``low-level,'' of nuclear attack would be, you stated 
``deterrence.'' Can you clarify what you meant in drawing a distinction 
between ``low-level nuclear attack'' and ``deterrence''? Are you 
suggesting deterrence only exists above a certain threshold of 
``nuclear attack?''
    Ms. Gordon-Hagerty. Given the complexities of today's evolving 
security environment, nuclear deterrence is more important now than at 
any time since the end of the Cold War. Any potential nuclear attack 
against the United States and its allies is the most serious threat to 
our national security and is unacceptable. Low-yield nuclear weapons 
bolster deterrence by signaling to potential adversaries that there is 
no possible advantage in limited nuclear weapon use against the United 
States. This does not lower our threshold for nuclear weapons use, but 
rather raises it for our adversaries. Maintaining diversity in weapon 
platforms' range and survivability is prudent to sustaining a tailored 
deterrence approach.
    Mrs. Davis. In your testimony before the committee, you noted: ``In 
terms of the escalate to deescalate, that's where the--an adversary, 
perhaps, attacks us and doesn't think that we have a capability to 
attack on a lower level, if you will, or with low-yield inclined 
nuclear weapons. But that is not a scenario that we envision.'' If this 
is not an envisioned scenario, why did the NNSA develop the W76-2 
warhead? Why is there a need to place low-yield nuclear weapons on the 
Ohio-class submarine force for the first time in the strategic 
submarine force's history?
    Ms. Gordon-Hagerty. In an era of renewed peer competition, the 
Department of Defense has identified the W76-2 as important to 
prudently sustain our nuclear deterrent capabilities by providing 
additional diversity in weapon platforms' range and survivability. The 
W76-2 is not a new nuclear weapon. It is a modification of the W76 
warhead using existing components and will utilize the same delivery 
platform as the W76, a Trident II D5 missile.
    Mrs. Davis. Do you see risks in increasing the likelihood of 
nuclear use by an adversary by drawing distinctions in levels of 
``nuclear attack''? Would it not be more prudent for our national 
security to make clear the United States does not consider any nuclear 
use ``low-level''?
    Ms. Gordon-Hagerty. Any potential nuclear attack against the United 
States and its allies is the most serious threat to our national 
security and is unacceptable. The majority of weapons in today's 
stockpile have surpassed their intended design life, thereby 
accumulating increasing risk. The United States has reduced its 
stockpile by 25 percent since 2010, while potential adversaries have 
increased their numbers of nuclear weapons and significantly modernized 
their nuclear capabilities. The U.S. nuclear deterrent has been the 
cornerstone of our national security and global stability for more than 
70 years, and its credibility serves as the ultimate insurance policy 
against a nuclear attack. Increasing the flexibility of the deterrent 
by providing additional options serves to increase our adversaries' 
nuclear thresholds. For more detail on questions about nuclear policy, 
NNSA defers to the Department of Defense.
    Mrs. Davis. Given the information you currently have with respect 
ongoing life extension programs such as the B61 or W88, are you 
expecting any delays in First Production Units?
    Ms. Gordon-Hagerty. Currently in Phase 6.4, Production Engineering, 
the B61-12 Life Extension Program (LEP) has demonstrated system 
performance in over 60 integrated ground and flight tests, including 
eight joint flight test drops. NNSA notified your committee of a 
technical issue with the B61-12 LEP that we estimate will delay the 
First Production Unit (FPU). NNSA is aggressively working to minimize 
the delay and are working with the Department of Defense to coordinate 
any possible impacts.
    The W88 Alt 370 is currently in Phase 6.4, Production Engineering. 
NNSA is aggressively managing the FPU for this program, which was 
scheduled for December 2019. NNSA also notified your committee that the 
same technical issue impacting the B61-12 LEP will impact the W88 
Alteration 370. The delay to FPU is still being assessed and a number 
of mitigation plans are being executed at this time, in coordination 
with the Department of Defense, to minimize schedule impacts to FPU.
    The remaining three weapons modernization programs (the W76-2 
Modification Program, the W80-4 LEP, and the W87-1 Modification 
Program) remain on schedule and on budget.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. In fall 2018, DOE put forth a proposal to reconsider 
its interpretation of high-level radioactive waste under the Atomic 
Energy Act as amended and the Nuclear Waste Policy Act of 1982 as 
amended.
    a. Why didn't the proposal include a role for the States or the 
Nuclear Regulatory Commission? Does DOE have concerns about involving 
NRC and the States in such critical decisions?
    b. What is the status of DOE's consideration of this new 
interpretation?
    Secretry White. The Department sought public comments on its high-
level radioactive waste (HLW) interpretation through its Request for 
Public Comment on the U.S. Department of Energy Interpretation of High-
Level Radioactive Waste. DOE received a total of 5,555 comments, 
roughly 360 of which were distinct, unrepeated comments, from a variety 
of stakeholders, including states and the Nuclear Regulatory Commission 
(NRC).
    DOE appreciates the comments received from the NRC and the states 
and is taking their input very seriously. The DOE places significant 
weight on the NRC and state views of matters relating to the safe 
management and disposal of radioactive waste, including their views on 
the HLW interpretation.
    The Department fully supports the NRC in its statutory and 
regulatory role with respect to regulating commercial nuclear 
activities (including licensing disposal facilities), as well as its 
historical and established consultative role to DOE on the disposal of 
certain reprocessing wastes. DOE intends to maintain its strong 
relationship with the NRC and will engage with the NRC on the best way 
to continue that relationship in the future. In addition, DOE currently 
works with states to satisfy existing regulatory agreements, and will 
continue that practice in regard to the HLW interpretation. The 
Department will work closely with state and local officials, 
regulators, tribal governments, and stakeholders, on a site-by-site 
basis, to ensure compliance with applicable programmatic requirements 
and regulatory agreements.
    DOE is in the process of evaluating public comments, and has not 
made any decisions at this time on the HLW interpretation.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. Given the cancellation of the MOX facility and the 
plan to repurpose the facility, what role do you envision for the 
Defense Nuclear Facilities Safety Board throughout design, 
construction, and operation? What is the plan and timeline for DNFSB 
oversight?
    Ms. Gordon-Hagerty. The DNFSB provides analysis, advice, and 
recommendations to the Secretary of Energy in order to assist the 
Department in providing adequate protection of the public health and 
safety at DOE's defense nuclear facilities. The Board's advisory 
functions under the Atomic Energy Act of 1954 (AEA), as amended, 
include review of the design of new Department of Energy defense 
nuclear facilities before construction begins and periodic review and 
monitoring of the construction as it progresses. DOE/NNSA anticipates 
timely engagement with the DNFSB, as governed by the AEA and DOE/NNSA 
directives, to strengthen early integration of safety-in-design and 
reduce project schedule risks by identifying and addressing nuclear 
safety issues as early as possible.
    Mr. Garamendi. Does NNSA anticipate conducting a Programmatic 
Environmental Impact Statement (PEIS) pursuant to the National 
Environmental Policy Act on its plan to expand plutonium pit production 
at two sites? If so, when does it plan to begin this process?
    Ms. Gordon-Hagerty. Thorough evaluations of potential environmental 
impacts associated with any proposal to produce plutonium pit at two 
sites will be conducted in accordance with the National Environmental 
Policy Act. NNSA notes that compliance with the National Environmental 
Policy Act is built into our acquisition process and we will implement 
an environmental compliance strategy.
    Mr. Garamendi. Given the cancellation of the MOX facility and the 
plan to repurpose the facility, what role do you envision for the 
Defense Nuclear Facilities Safety Board throughout design, 
construction, and operation? What is the plan and timeline for DNFSB 
oversight?
    Mr. Hamilton. The Atomic Energy Act obliges the Board to review the 
design of the repurposed MOX facility before construction begins and to 
recommend to the Secretary of Energy any modifications of the design 
that the Board considers necessary to ensure adequate protection of 
public health and safety. During construction, I expect the Board will 
periodically review and monitor construction and will provide further 
recommendations and/or advice. During startup and operations, I 
anticipate that the Board will continue to monitor the facility and 
make any necessary recommendations and/or advice. No plan is yet in 
place for each of these steps because the facility construction 
authorization, funding and timeline are just in development. I predict 
that oversight will begin at some point between the Department's 
establishment of Critical Decision 2 (Approve Performance Baseline) and 
Critical Decision 3 (Approve Start of Construction or Execution).
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MS. HORN
    Ms. Horn. Mr. Hamilton, in your testimony before the committee you 
stated that the Board's work during the ramp up of activity in the 
nuclear complex will make your job easier due to newer facilities 
coming on line to replace older Manhattan Project-era ones.
    1. Please detail the specific facilities, including planned 
facility start dates, that are coming online that you believe will make 
the Board's work easier.
    2. Is there not an increased Board workload from doing both safety 
oversight of current facilities, and ensuring future facilities are 
designed, built, and operated in a safe manner?
    3. Further, with regard to DOE's Environmental Management work, how 
does the Board plan to do safety oversight as new facilities at 
Savannah River and Hanford come online?
    4. How do you plan to incorporate all this additional work while 
reducing the planned number of Full-Time Equivalents (FTEs) from your 
FY2019 request of 117 to 100 FTEs for FY20?
    Mr. Hamilton. At Los Alamos National Laboratory: The Transuranic 
Waste Facility (TWF), operational as of October 2017, partially 
replaces waste storage on outdoor pads, leaving enduring missions in 
Waste Characterization, Reduction, and Repackaging Facility (WCRR) and 
Radioassay and Nondestructive Testing Facility (RANT); The Radiological 
Laboratory Utility Office Building (RLUOB, started chemical operations 
January 2014, started radiological operations August 2014, partially 
replaces Chemistry and Metallurgy Research Building (CMR), leaving some 
enduring missions to be relocated to Plutonium Facility; The Low-Level 
Liquid Waste Facility (LLLW), start operations November 2018, partially 
replaces The Radioactive Liquid Waste Treatment Facility (RLWTF), 
leaving the remaining mission to be relocated to another planned 
facility (Transuranic Liquid Waste Project); The Transuranic Liquid 
Waste Project (TLW), solicitation of bids for design and construction 
issued April 2019, to replace RLWTF functions not already transitioned 
to new LLLW Facility; Plutonium Modules, CD-0 approved in 2015 but the 
project was removed from the FY2019 Stockpile Stewardship Management 
Plan, if pursued, some activities from Plutonium Facility would be 
relocated to module(s).
    At Pantex: The Material Staging Facility (MSF), planned to be 
Operational by 2040, or by 2030 if scope is reduced, would replace Zone 
4 storage magazines for nuclear explosives and nuclear materials.
    At The Savannah River Site: SRS Plutonium Processing Facility, 
retrofit of the unfinished MOX Fuel Fabrication Facility, planned to be 
operational at full capacity by 2030; The Salt Waste Processing 
Facility (SWPF), construction complete April 2016, currently undergoing 
testing and cold commissioning, start of operations projected by March 
2020, based on the pilot projects Actinide Removal Process (ARP) and 
Modular Caustic Side Solvent Extraction (CSSX) Unit (MCU), which have 
operated for over 10 years.
    At Y-12: The Uranium Processing Facility (UPF), construction 
started June 2016, partially replaces B9212, leaving enduring missions 
in B9215 and B9240-2E.
    At Hanford: The Waste Treatment & Immobilization Plant (WTP) 
Pretreatment Facility, under design and under construction but activity 
was suspended 2012, start of construction July 2002; The WTP Low-
Activity Waste (LAW) Facility, construction complete June 2018; 
currently undergoing testing and cold commissioning, start of 
operations projected by 2023, WTP High- Level Waste (HLW) Facility, 
under design and construction; all activity suspended 2012, start of 
construction July 2002; WTP Analytical Laboratory Facility, under 
construction, start of construction July 2002; WTP Low-Activity Waste 
Pretreatment System (LAWPS), design work suspended.
    At Idaho National Laboratory: The Integrated Waste Treatment Unit 
(IWTU), construction complete; currently undergoing testing and cold 
commissioning, start of operations projected by 2020.
    I do not agree with some who correlate the steep budgetary increase 
for DOE with increased challenges to the adequate protection of the 
public. This includes the new facilities at Savannah River and Hanford. 
In fact, I believe it to be just the opposite . . . an inverse 
correlation. Increased funding for the weapons complex and the legacy 
environmental management means more built-in safety, not less. The 
increase funding goes to correcting maintenance backlogs, tackling 
aging infrastructure, replacing Manhattan Project-era buildings with 
modern construction, and replacing equipment which is worn out and has 
dated technology with modern, safer components. Those things come at a 
cost, but they make the complex even safer than it already is. This 
counter-intuitive situation is further enhanced as rising operational 
intensity increases learning. As production increases, for example, the 
workforce learns what does and doesn't work, improves the processes, 
procedures, and techniques, and develops much higher skill 
competencies. Consequently, it's my view that higher levels of 
production will be even safer than the current situation, which is 
already profoundly safe.
    Board and Board staff oversight of existing facilities and the 
statutory mission to review facility design and construction is managed 
through the annual technical staff work plan. The plan allows the work 
load to be levelized through a timing, prioritization and ranking 
process which can be modified by the Board from time-to-time throughout 
the year. While the Board is directed through statute to review design 
and construction, the level to which those reviews are conducted is 
left to the decision of the Board. The contemporary design and 
construction process is defined by modern and detailed codes and 
regulations, which means that the quality of the products are superior 
to the previous generation. As a result, I believe that the Board and 
Board staff reviews need not be as invasive as in the past. How much 
oversight is prudent will always be a subjective decision, but recent 
years indicate that the combined level of effort required to ensure 
adequate protection of the public health and safety for both existing 
and new defense nuclear facilities is well within the capacity of 
current agency size. Given that current staff (not including contract 
employees) consists of 88 full-time equivalents, a staff of 100 will be 
more than adequate to achieve the statutory mission.

                                  [all]
</pre></body></html>
